   Treasury’s Role in the Decision for GM To
 Provide Pension Payments to Delphi Employees




SIGTARP 13-003                         August 15, 2013
                    Office of the special inspector general
                        For the Troubled Asset Relief Program
                                   1801 L Street, NW, 4th Floor
                                     Washington, D.C. 20220

 

                                        August 15, 2013


MEMORANDUM FOR:            The Honorable Jacob J. Lew – Secretary of the Treasury

FROM:                      The Honorable Christy L. Romero – Special Inspector General
                           for the Troubled Asset Relief Program

SUBJECT:                   Treasury’s Role in the Decision for GM To Provide Pension
                           Payments to Delphi Employees (SIGTARP 13-003)


We are providing this report for your information and use. It discusses the U.S. Department of the
Treasury’s (“Treasury”) role in the decision for the General Motors Corporation to top up the pension
payments of certain Delphi Corporation hourly employees.

The Office of the Special Inspector General for the Troubled Asset Relief Program conducted this audit
(engagement code 024), under the authority of Public Law 110-343, as amended, which also
incorporates the duties and responsibilities of inspectors general under the Inspector General Act of
1978, as amended.

We considered comments from the Department of the Treasury when preparing the report. Treasury’s
comments are addressed in the report, where applicable, and a copy of Treasury’s response is included
in the Management Comments section in Appendix D.

We appreciate the courtesies extended to our staff. For additional information on this report, please
contact me or Mr. Bruce S. Gimbel, Acting Assistant Deputy Special Inspector General for Audit and
Evaluation (Bruce.Gimbel@treasury.gov / 202-927-8978).



 




SIGTARP 13-003                                                                     August 15, 2013
Treasury’s Role in the Decision for GM To Provide Pension Payments
to Delphi Employees
 

                                                  this sent a message to GM executives and
Summary                                           was an early indicator that Treasury, as the
                                                  main investor in GM, would have significant
The U.S. Department of the Treasury’s             influence over GM’s decisions and
(“Treasury”) injection of Troubled Asset          operations. After Treasury rejected GM’s
Relief Program (“TARP”) funds in General          restructuring plan, GM developed a new plan
Motors Corporation (“GM”) and Chrysler            with significant influence and leverage from
Group LLC (“Chrysler”) was the only bailout       the Auto Team. One GM official said,
with a President’s Designee overseeing the        “Ultimately it was that GM is not in control.
companies’ restructurings – the Presidential      And GM is totally dependent.”
Task Force on the Auto Industry (“Auto Task
Force”). The Auto Task Force delegated the        Although the Auto Team’s role was supposed
responsibility for GM’s restructuring to four     to be advisory for matters not requiring
primary officials who were part of an Auto        Treasury’s consent under the TARP loan
Team led by Steven Rattner. GM’s                  agreement, in practice, it was more than
bankruptcy would be one of the largest and        advisory. The TARP loan agreement gave
fastest bankruptcies in our nation’s history. A   Treasury the explicit right to approve
new company, “New GM,” emerged from               transactions over $100 million and new
GM’s bankruptcy in July 2009, with Treasury       pension obligations, but the Auto Team’s
owning 61% of its common stock. New GM            influence went far beyond that right.
purchased substantially all of GM’s assets        SIGTARP found that the Auto Team used
while leaving behind many of its liabilities.     their leverage as GM’s largest lender to
One of the liabilities that New GM agreed to      influence GM to make decisions in areas that
honor related to the pensions of certain          did not require Treasury’s consent, in line
former GM employees paid an hourly wage           with Treasury’s preferences. Auto Team
and represented by certain unions, and who        officials told SIGTARP that they “had to
had worked in GM’s automobile parts division      carefully manage GM,” that “we, the
that was spun off into Delphi Corporation         Government, were ultimately holding the
(“Delphi”). The four Treasury Auto Team           purse strings” and “GM realized that there
officials made it clear to SIGTARP that the       was no other available source of money.”
decisions made and Treasury’s role related        When an Auto Team official was asked by
to Delphi pensions had to be viewed in the        SIGTARP how they conveyed their
broader context of GM’s restructuring.            preference, given that ultimately GM could do
                                                  its own thing, the official said, “Well they
                                                  could, but then they couldn’t exist. I mean, as
What SIGTARP Found                                I said, as the lender we had a fair amount of
                                                  leverage.”
The existence of Treasury’s Auto Team and
the role these Treasury officials played          Driven by broader concerns about the auto
sharply contrasted with the role played by        industry, Treasury’s Auto Team directed
Treasury officials under other TARP               GM’s restructuring toward bankruptcy, first
programs. The four Treasury Auto Team             through replacing the CEO who opposed
officials played a direct role in GM’s            bankruptcy, second by “highly” suggesting to
decisions and operations up to and through        GM that they felt “pretty strongly” that a
GM’s bankruptcy. As GM’s only lender and          “Section 363” bankruptcy was the best
later GM’s largest investor, Treasury’s Auto      approach. Third, although CEO Henderson
Team had significant leverage and influence       hoped to avoid bankruptcy through a bond
on GM’s decisions leading up to and through       exchange, the Auto Team, who opposed the
the bankruptcy, first exerted by replacing        exchange, communicated to GM their
GM’s then-chief executive officer (“CEO”)         preference for 90% bondholder participation,
Rick Wagoner with Treasury’s choice, Fritz        a “very high” level of acceptance making
Henderson. According to Mr. Henderson,            bankruptcy more likely. When the exchange


SIGTARP 13-003                                                                    August 15, 2013
Treasury’s Role in the Decision for GM To Provide Pension Payments
to Delphi Employees
 

failed, Treasury agreed to fund GM’s               Aerospace, and Agricultural Implement
bankruptcy.                                        Workers of America (“UAW”).

Treasury’s Auto Team created a condition on        Treasury’s requirement in the December
funding GM’s bankruptcy that would serve as        2008 TARP loan agreement that GM reach a
pressure on GM and would drive pre-                new deal with the UAW, Treasury’s
bankruptcy negotiations and decisions.             conditioning TARP funds on a 40-day quick-
Treasury conditioned giving GM $30.1 billion       rinse bankruptcy, and UAW’s leverage to
in TARP funds on a “quick-rinse bankruptcy”        stall the bankruptcy or strike pressured GM
that would end in 40 days because Auto             on “getting the deal done” with the UAW and
Team officials thought that was the best way       resulted in New GM taking on the liability to
to save the automobile industry, concerned         top up the pensions of UAW’s members who
that GM could not survive a lengthy                had worked at Delphi at the time of its 1999
bankruptcy and GM’s failure would have             spinoff from GM, increasing their pension
broader systemic consequences. Neither             benefit payments to their full benefit level.
Treasury nor GM believed that the company          The Auto Team made it clear to GM that they
could survive a lengthy bankruptcy; however,       wanted an agreement with the UAW prior to
GM thought that the 40-day timeline was not        bankruptcy (which had to be before a
realistic, with its lawyer telling the Auto Team   June 1, 2009, bond payment due date) and
that it was “impossibly aggressive. It’s never     the Auto Team actively negotiated and made
been done.” Treasury had leverage to set a         the overall deal. The UAW understood that
timeframe that did not seem realistic to GM,       GM could not walk away from the May 18-19
and had never been done before. If GM’s            negotiations and had to reach an agreement
bankruptcy was not completed in time, GM           to be able to survive, and those same facts
risked losing its only source of financing and     put pressure on GM. GM only had a couple
its purchaser in bankruptcy.                       of weeks to come to agreement with the
                                                   UAW, and if they did not come to agreement,
Treasury’s influence over GM deepened after        GM risked the UAW objecting to and
Treasury decided to fund GM’s bankruptcy           prolonging the bankruptcy beyond 40 days,
and become the majority owner of New GM.           which GM believed would lead to liquidation.
With their leverage as the purchaser of GM’s       The UAW came to the negotiations with a “hit
assets in bankruptcy, Treasury’s Auto Team         list” of priority items including the top-up.
had significant influence on GM to make            The top-ups were never discussed in the
specific decisions that were in keeping with       negotiations.
Treasury’s preferences. One Auto Team
official called Treasury’s leverage                The Auto Team’s role in the decision to top
“considerable” because the alternative was         up the pensions of Delphi’s UAW workers
“catastrophic,” adding that he meant               was not advisory. Consistent with the Auto
liquidation. GM’s then-chief financial officer     Team’s practice, it would have been
(“CFO”) Ray Young told SIGTARP, “We put            Treasury’s decision as the buyer to assume
forward recommendations, but at the end of         or reject the top-up liability. Although the top-
the day, the purchaser [Treasury] makes the        up was previously a separate written
final decision.” An Auto Team official stated,     agreement, the top-up was now included as
“it is my understanding that as the buyer, we      one of the obligations in the overall new
get to determine which assets are, you know,       collective bargaining agreement with the
assets we would buy and which liabilities” we      UAW, which was included in the Master Sale
would take on. Treasury used its significant       and Purchase Agreement selling assets to
financial leverage to get GM to reach              New GM. GM could not decide on its own to
agreement with the two stakeholders that           agree to the new collective bargaining
Treasury believed could hold up GM’s               agreement that included the top-up because
bankruptcy – the bondholders and the               Treasury’s consent was required under the
International Union, United Automobile,            TARP loan agreement and Treasury was the
                                                   purchaser in bankruptcy. The decision that


SIGTARP 13-003                                                                              August 15, 2013
Treasury’s Role in the Decision for GM To Provide Pension Payments
to Delphi Employees
 

New GM would honor the top-up was a joint        other top-up agreements with Delphi IUE and
decision by Treasury and GM with Treasury        USW employees because those unions did
deciding to approve the UAW collective           not have leverage, subsequently New GM
bargaining agreement with the top-up.            agreed to top up the smaller unions because
                                                 of the leverage those unions had to prolong
Even though the top-up was never discussed       Delphi’s bankruptcy or strike, which GM
in the negotiations with the UAW, it became      believed would significantly impact its ability
a foregone conclusion that it would be           to survive.
included in the new UAW agreement. Auto
Team leader Rattner told SIGTARP that GM
had the option of honoring or not honoring       Lessons Learned
the top-up, but GM needed UAW workers
and UAW’s consent was necessary for the          GM did not fail and the broader systemic
bankruptcy. Auto Team leader Rattner and         consequences of a GM failure that Treasury
another Auto Team official told SIGTARP          feared were avoided. There are two
that, because the UAW included it on their       important lessons to be learned from the role
list, it was clear that the UAW expected the     that Treasury played.
top-up to be part of the overall deal.
Treasury had the power to object to New GM       First, the Auto Team’s deep involvement and
taking on the top-up obligation as part of the   significant influence on GM’s decisions
larger UAW agreement, but had no desire to       leading up to and through GM’s bankruptcy
blow up the larger deal. Although the Auto       led to expectations that Treasury would not
Team was concerned about the threat of a         act as a private investor, but as the
strike, they were also concerned with the        Government. The Pension Benefit Guaranty
UAW prolonging the bankruptcy, calling not       Corporation (“PBGC”), a Government-backed
having an agreement like “shooting yourself      insurer of pensions, had an expectation that
in the head.” Auto Team leader Rattner told      decisions on what obligations GM would take
SIGTARP that getting more on pensions            on related to the Delphi pensions would
“was a game of chicken we didn’t want to         proceed differently than what might have
play. We were under incredible time              normally occurred, and could potentially have
pressure,” adding “it was not a ridiculous       saved PBGC billions of dollars with Treasury
request, and one that we could have honored      involved. Also contributing to this
and needed to honor.” CEO Henderson told         expectation was the fact that the Auto Team
SIGTARP that the pressure to finish the          negotiated with PBGC on behalf of GM
negotiations resulted in no negotiation of the   related to what GM would pay on the
top-up, “the focus was on getting the deal       pensions. Delphi and its workers, who had
done,” and that if the top-up was not            been former GM employees, also had the
assumed, “it would have been ‘mission            expectation that the Government would
impossible.’”                                    ensure that GM treat the pensions of all
                                                 former GM employees at Delphi the same
Treasury’s Auto Team and GM did not agree        out of fairness. Also contributing to this
to top up the pensions of other former GM        expectation was the fact that TARP funds
employees at Delphi, which did not have          were being used, and that GM had taken the
active employees at GM, and therefore had        position with Delphi (and PBGC) that taking
no leverage to hold up GM’s bankruptcy.          on additional pension obligations violated the
This included Delphi employees who were          TARP loan agreement and required
paid a salary and employees who were paid        Treasury’s consent. A PBGC document
an hourly wage who were members of the           stated that Delphi believed GM may be
International Union of Electronic, Electrical,   looking to the “car czar” to mandate that GM
Salaried, Machine and Furniture Workers          assume Delphi pensions as part of GM’s use
(“IUE”) and the United Steelworkers of           of TARP funds. One former Delphi salaried
America (“USW”). Although in GM’s                employee told SIGTARP that Treasury
bankruptcy New GM did not assume the             “cannot throw off the mantle of Government


SIGTARP 13-003                                                                          August 15, 2013
Treasury’s Role in the Decision for GM To Provide Pension Payments
to Delphi Employees
 

and make themselves into a commercial              Second, the additional leverage Treasury
enterprise” and “it is wrong of our                gave to certain stakeholders, such as the
Government to take funds from everyone and         UAW, contributed to criticism of the disparate
give it to the few.” However, Auto Team            treatment between Delphi salaried and union
officials attempted to view top-ups as a           employees. One Auto Team official told
private investor with one Auto Team official       SIGTARP that the strength of the negotiating
telling SIGTARP that the Government could          parties was dictated by the leverage they
not make everyone whole, saying, “I don’t          held, but SIGTARP found that additional
think that anybody thinks bankruptcy is fair.”     leverage was given by Treasury. The Auto
                                                   Team established a hierarchy of importance
Treasury’s Auto Team did not always act as         of stakeholders and issues that Auto Team
a private investor and at times acted as the       officials believed had to be completed prior to
Government to prevent GM from failing,             GM’s bankruptcy filing to ensure a successful
concerned about financial stability in the auto    quick-rinse bankruptcy that would be
industry. Although the Auto Team tried to          completed in 40 days. Treasury did not view
view issues through a “commercially                the non-UAW Delphi hourly employees or the
reasonable” lens like a private investor, they     Delphi salaried employees as having
often did not act as a private investor, nor       leverage because they did not have current
should they have. Without policies or              employees at GM and therefore could not
procedures to define commercial                    hold up GM’s bankruptcy.
reasonableness, Treasury used commercial
reasonableness as a justification for all of its   Two liabilities that the Auto Team had
actions, even when those actions were              already decided to assume in bankruptcy
based on other concerns. For example,              were new agreements with the UAW and
Treasury decided not to move GM’s                  bondholders. The UAW had leverage
headquarters to save costs out of concerns         because it knew and understood from
over the impact on the city of Detroit.            Treasury that it was committed to reorganize
Treasury made other decisions based on             GM and not let GM fail. Treasury’s 40-day
broader concerns about the                         bankruptcy condition gave the UAW and
interconnectedness of the auto industry. No        bondholders additional leverage to threaten
private investor holds the responsibility          to hold up GM’s bankruptcy. They may have
Treasury has to protect taxpayers and to           been able to obtain more concessions than in
promote financial stability in the economy.        a traditional bankruptcy where the issues
Treasury made the TARP injections in GM            may be litigated. An Auto Team official told
when no other private investor would lend or       SIGTARP, “We had to negotiate a deal that
invest the money that GM needed, according         the UAW and bondholders would accept.”
to GM’s then CFO. Concerned about too              With Treasury’s dictate of a 40-day
much debt on GM’s balance sheet, Treasury          bankruptcy and no indication that Treasury
funded GM’s bankruptcy and converted what          would extend that timeframe, GM officials
would be higher priority TARP debt to a lower      were under pressure, believing they had to
priority equity ownership in New GM and,           reach agreements with the bondholders and
according to GM, paid more than GM’s               UAW prior to bankruptcy or risk losing
“Enterprise Value.” Treasury’s Auto Team           Treasury’s funding and liquidating.
took these actions based on concerns of the
consequences of a GM failure on other              It is very difficult for Treasury to act as only a
companies in the American automotive               private investor and still fulfill its greater
industry, concerns not held by private             governmental responsibilities. Treasury
investors. Even though the Auto Team tried         entered the TARP investments as the
to act as a private investor, they had             Government, and must continue to act as the
considerations that no private investor would      Government the whole time it holds these
ever have had, blurring the lines between          investments, protecting taxpayers’
Treasury’s role as the investor and as the         investment and fulfilling Treasury’s
Government.                                        responsibility to promote financial stability in


SIGTARP 13-003                                                                               August 15, 2013
Treasury’s Role in the Decision for GM To Provide Pension Payments
to Delphi Employees
 

the economy. An important lesson
Government officials should learn from the
Government’s unprecedented TARP
intervention into private companies is that the
actions and decisions taken must represent
the overarching responsibilities the
Government owes to the American public.


What SIGTARP Recommended

SIGTARP makes no recommendations in this
report. Although Treasury remains invested
in GM, and TARP’s Automotive Industry
Financing Program is ongoing, the subject
matter of this report concerns specific actions
taken by Treasury’s Auto Team during 2008
and 2009 that are unlikely to occur again
because the Auto Team disbanded.

Treasury provided an official written
response, which is reproduced in full in
Appendix D. A discussion of this response
and SIGTARP’s response can be found in
the Management Comments and SIGTARP’s
Response section of this report.




SIGTARP 13-003                                                August 15, 2013
Treasury’s Role in the Decision for GM To Provide Pension Payments
to Delphi Employees
 


Table of Contents

Introduction ................................................................................................................................................. 1 
Background ................................................................................................................................................. 4 
Treasury Plans for GM’s Bankruptcy, Replaces GM’s CEO, and Rejects GM’s Restructuring
    Plan .......................................................................................................................................................... 7 
Treasury’s Auto Team Replaces GM’s CEO.............................................................................................. 8 
Treasury’s Auto Team Rejects GM’s Restructuring Plan .......................................................................... 9 
Treasury’s Auto Team and GM Develop a New GM Restructuring Plan ................................................ 11 
Cutting Costs Related to Delphi ............................................................................................................... 13 
Cutting Pension Costs ............................................................................................................................... 13 
Treasury’s Role in the Decision for GM To File Bankruptcy .................................................................. 16 
Treasury Agreed To Fund GM’s Bankruptcy with $30.1 Billion from TARP, but Only for
    40 Days .................................................................................................................................................. 18 
“Cherry-picking” Assets and Liabilities ................................................................................................... 19 
Deals with Major Stakeholders Before Bankruptcy ................................................................................. 20 
Treasury’s Role in Pre-Bankruptcy Deal with GM’s Bondholders .......................................................... 21 
Treasury’s Role in Pre-Bankruptcy Deal with UAW, Which Included New GM Assuming the
    Top-Up of Pensions ............................................................................................................................... 22 
GM Completes Bankruptcy in 40 Days Without Agreeing To Top Up Any Other Delphi
    Employee ............................................................................................................................................... 27 
Delphi Salaried Retirees ........................................................................................................................... 27 
Delphi Hourly Employees Represented by Smaller Unions ..................................................................... 30 
Conclusion ................................................................................................................................................ 33 
Management Comments and SIGTARP’s Response ................................................................................ 42 
Appendix A – Objectives, Scope, and Methodology ................................................................................ 43 
Appendix B – Acronyms and Abbreviations ............................................................................................ 45 
Appendix C – Audit Team Members ........................................................................................................ 46 
Appendix D – Management Comments .................................................................................................... 47 

SIGTARP 13-003                                                                                                                      August 15, 2013
TREASURY’S ROLE IN THE DECISION FOR GM TO PROVIDE PENSION PAYMENTS TO DELPHI EMPLOYEES               1




                  Introduction
                  General Motors Corporation’s (“GM”) bankruptcy was one of the largest and
                  fastest bankruptcies in our nation’s history. Having already invested $19.4 billion
                  in GM under two Administrations through the Troubled Asset Relief Program
                  (“TARP”), in June of 2009, the U.S. Department of the Treasury (“Treasury”)
                  loaned GM an additional $30.1 billion from TARP to fund GM’s bankruptcy, and
                  conditioned the money on the bankruptcy ending in 40 days. In exchange for its
                  combined $49.5 billion TARP investment, Treasury would become the majority
                  (61%) owner of a new company that would emerge from GM’s bankruptcy
                  (“New GM”), purchasing substantially all of GM’s assets, and leaving behind
                  many of its liabilities with the old company (“Old GM”). One of the liabilities
                  that New GM agreed to honor related to the pensions of certain former GM
                  employees who had worked in its automobile parts division Delphi Corporation
                  (“Delphi”), when GM spun off Delphi into an independent company in 1999. The
                  agreement ran to Delphi employees who were paid an hourly wage (an “hourly
                  employee”) and were represented by certain unions. Delphi employees who were
                  paid a salary (a “salaried employee”) did not have an agreement for GM to pay
                  anything toward their pensions after the 1999 spinoff. Delphi, which was GM’s
                  largest supplier of parts, had been in bankruptcy since 2005 and did not have
                  enough money to fund its pensions.

                  With the first TARP injection in GM, Treasury assigned responsibility for
                  overseeing GM’s restructuring to a “President’s Designee” that was later formed,
                  in February 2009 – the Presidential Task Force on the Auto Industry (“Auto Task
                  Force”), which delegated the responsibility for GM’s restructuring to a group of
                  Treasury officials known as the Auto Team (“Auto Team”). The existence of the
                  Auto Team and the role they would play with GM and Chrysler Group LLC
                  (“Chrysler”) sharply contrasted with the role played by Treasury officials under
                  other TARP programs. The auto bailout was the only TARP program with a
                  President’s Designee responsible for the restructuring of the TARP recipient.
                  Auto Team officials would play a direct role in the decisions and operations of
                  GM until the Auto Team disbanded in the summer of 2009, soon after both
                  automakers’ bankruptcies.

                  Senator Roger Wicker and Congressman John Boehner sent a letter to the
                  Government Accountability Office (“GAO”) requesting a review of five questions
                  related to the decision that GM would top up pension payments for Delphi hourly
                  employees beyond what the Pension Benefit Guaranty Corporation (“PBGC”), a
                  Government-backed insurer of pensions, would pay if the pension plans were
                  terminated, but not top up pension payments for Delphi salaried employees and
                  related to PBGC’s termination of the Delphi pensions. Former Congressman
                  Christopher J. Lee also requested that SIGTARP work with GAO and that
                  SIGTARP issue a separate report from GAO on one of the five questions.
                  Congressman Michael R. Turner also requested that SIGTARP conduct a similar
                  review after Congressman Lee left office. GAO and SIGTARP coordinated,


SIGTARP 13-003                                                                            August 15, 2013
TREASURY’S ROLE IN THE DECISION FOR GM TO PROVIDE PENSION PAYMENTS TO DELPHI EMPLOYEES                                 2




                      dividing the work into two parts that each office would address. GAO reviewed
                      PBGC’s termination of Delphi’s hourly and salaried pension plans and other
                      PBGC issues. To avoid duplicating GAO’s work, SIGTARP did not review
                      PBGC’s decisions. The objectives of SIGTARP’s audit were to determine:

                         Treasury’s role in the decision for GM to top up (pay the full cost of pensions
                          less any PBGC payout) the pension plan; and
                         whether the Administration or the Auto Task Force pressured GM to provide
                          additional funding for the plan.

                      In December 2011, GAO issued a report that included the statement, “GM and
                      Treasury officials stated that Treasury’s role was advisory concerning GM’s
                      decisions not to take on additional Delphi pension liabilities but to honor the top-
                      up agreements with some unions.”1 A GAO official subsequently testified before
                      Congress in July 2012, that “the court filings, Treasury officials, PBGC officials,
                      GM officials stated that Treasury only played an advisory role. I would note,
                      however, in conducting our work, we coordinated with SIGTARP, and our report
                      focused on a broad range of things, including PBGC issues, the events leading to
                      the termination in Treasury’s role. But we did not conduct an investigation, as
                      SIGTARP is doing, and we did not interview the former [Treasury Auto Team]
                      officials here today.”2

                      SIGTARP conducted the audit from December 2010 through August 2013, in
                      accordance with generally accepted government auditing standards as prescribed
                      by the Comptroller General of the United States.3 SIGTARP’s work was
                      significantly prolonged by the refusal of four key former Treasury Auto Team
                      officials working on GM’s restructuring to be interviewed by SIGTARP.4 In
                      July 2012, Congress held a hearing on the former Treasury officials’ refusals to be
                      interviewed. In the weeks prior to the hearing, the leader of the Auto Team,
                      Steven Rattner, agreed to be interviewed by SIGTARP. At the Congressional
                      hearing, SIGTARP learned for the first time that the other three former Treasury
                      officials – Ron Bloom, Harry Wilson, and Matthew Feldman – had told Congress

1
  GAO-12-168, “GM Agreements with Unions Give Rise to Unique Differences in Participant Benefits,” 12/15/2011.
2
  Hearing before the Subcommittee on TARP, Financial Services and Bailouts of Public and Private Programs of the
  Committee on Oversight and Government Reform, 7/10/2012.
3
  For a discussion of the audit’s scope and methodology, see Appendix A.
4
  Three former Treasury Auto Team officials all include their roles in GM’s restructuring in their professional
   biographies. Ron Bloom’s biography states that “he helped lead the restructuring of GM and Chrysler, and then led
   Treasury’s oversight of the companies thereafter.” Harry Wilson’s biography states that “he worked as one of the four
   leaders of the Auto Task Force, responsible for the Treasury’s role in the restructuring of GM and Chrysler.
   Mr. Wilson led a team that was responsible for the business and financial work of the Task Force and also led a team
   overseeing the financial and operational restructuring of GM, the largest in American history.” Matthew Feldman’s
   biography states that he served as Chief Legal Advisor to the Auto Task Force “assembled to help develop the overall
   strategy to restructure and recapitalize General Motors Corporation and Chrysler LLC, a strategy which resulted in the
   groundbreaking legal proceedings that implemented a comprehensive financial solution for both companies. The Auto
   Team conducted complex negotiations with all major constituents of both companies, including Fiat SpA (which now
   runs Chrysler), the United Auto Workers and major creditors of both auto makers under a compressed timeline.”


SIGTARP 13-003                                                                                              August 15, 2013
TREASURY’S ROLE IN THE DECISION FOR GM TO PROVIDE PENSION PAYMENTS TO DELPHI EMPLOYEES             3




                  that they would agree to a SIGTARP interview. Those interviews served as a
                  turning point in SIGTARP’s work because SIGTARP could not fully determine
                  Treasury’s role without interviewing the Treasury officials involved. The former
                  Treasury officials made it clear to SIGTARP that the decisions made and
                  Treasury’s role related to Delphi pensions had to be viewed in the broader context
                  of GM’s restructuring, which is what this report covers. SIGTARP makes no
                  recommendations in this report. Although Treasury remains invested in GM, and
                  TARP’s Automotive Industry Financing Program is ongoing, the subject matter of
                  this report concerns specific actions taken by Treasury’s Auto Team during 2008
                  and 2009 that are unlikely to occur again because the Auto Team disbanded.




SIGTARP 13-003                                                                           August 15, 2013
TREASURY’S ROLE IN THE DECISION FOR GM TO PROVIDE PENSION PAYMENTS TO DELPHI EMPLOYEES                               4




                        Background
                        According to testimony from Auto Team official Ron Bloom, in 2008, the U.S.
                        auto industry lost 50% of its sales volume and over 400,000 jobs. Ray Young,
                        GM executive vice president and chief financial officer (“CFO”) in 2008 and
                        2009, told SIGTARP that in March 2008 GM started looking to identify sources
                        of financing. Young told SIGTARP that by late 2008, it became clear that there
                        was no source of financing and no parties were interested in investing in GM. In
                        November 2008, GM sought Government financial support. In December 2008,
                        Treasury, under the Bush Administration, announced TARP’s Automotive
                        Industry Financing Program with the stated goal to prevent a significant
                        disruption to the American automotive industry that would pose a systemic risk to
                        financial market stability and have a negative effect on the U.S. economy.

                        On December 31, 2008, Treasury provided $13.4 billion in TARP funds in a
                        TARP loan to GM through the Automotive Industry Financing Program, and on
                        January 2, 2009, Treasury provided $4 billion to Chrysler. Treasury’s Loan and
                        Security Agreement (“TARP loan agreement”) required GM and Chrysler to each
                        submit by February 17, 2009, for review and approval by the President’s
                        Designee a restructuring plan showing how they would use the TARP funds to
                        achieve “long-term viability,” which was defined as “positive net present value,
                        taking into account all current and future costs, and can fully repay the
                        government loan.”

                        In summary, the TARP loan agreement with GM also laid out three conditions
                        that needed to be met for GM to achieve and sustain long-term viability and that
                        needed to be approved by Treasury by March 31, 2009: (1) GM was required to
                        establish an agreement with the International Union, United Automobile,
                        Aerospace, and Agricultural Implement Workers of America (“UAW”), which
                        represented nearly all of GM’s union employees, as well as an estimated 500,000
                        retirees, that would include reduced labor costs; (2) as part of the new agreement
                        with the UAW, the UAW would agree that at least 50% of the approximately
                        $20 billion obligation GM had to the UAW retiree health care trust, called the
                        Voluntary Employee Beneficiary Association plan (“VEBA”), had to be funded
                        with GM stock; and (3) GM would commence a voluntary offer to have its
                        bondholders who held approximately $27 billion in debt exchange their debt for
                        GM stock. President George W. Bush said that ensuring viability would require
                        “meaningful concessions from all involved in the automotive industry.”

                        On February 15, 2009, President Barack Obama convened the Auto Task Force
                        and named Treasury Secretary Timothy F. Geithner and National Economic
                        Council Director Dr. Lawrence Summers to serve as co-chairs.5 Treasury created
                        the Auto Team and the Auto Task Force delegated to it the responsibility of
                        evaluating the auto companies’ restructuring plans and negotiating the terms of

5
    The Auto Task Force had 21 members including several cabinet-level officials from across the Executive Branch.


SIGTARP 13-003                                                                                             August 15, 2013
TREASURY’S ROLE IN THE DECISION FOR GM TO PROVIDE PENSION PAYMENTS TO DELPHI EMPLOYEES                               5




                     any further assistance. Leading the Auto Team was Steven Rattner, co-founder of
                     Quadrangle Group, a private equity firm. Ron Bloom, a former investment
                     banker and former head of collective bargaining for the United Steelworkers of
                     America (“USW”), served as his deputy and then the head of the Auto Team after
                     Mr. Rattner left Treasury in July 2009. With a staff of 15 people, the other key
                     members of the Auto Team who worked on GM’s restructuring with Mr. Rattner
                     and Mr. Bloom included Matthew Feldman, who told SIGTARP that he was
                     brought in to be the bankruptcy lawyer for Treasury, and Harry Wilson, a former
                     member of the hedge fund management firm Silver Point Capital. Mr. Bloom
                     told SIGTARP that Dr. Summers and Secretary Geithner gave the Auto Team a
                     fair amount of authority, but major decisions went to Dr. Summers and Secretary
                     Geithner.6

                     These Auto Team officials told SIGTARP that they were directed by Treasury
                     and the Administration to act in a “commercially reasonable” manner. There
                     were no policies and procedures defining commercially reasonable; it was subject
                     to interpretation.7 Auto Team leader Rattner told SIGTARP that he interpreted
                     the commercially reasonable approach as “if we would be doing this in the private
                     sector and spending money on it.” Auto Team official Wilson testified in a
                     deposition that “our test had to be what a commercial buyer would do” adding,
                     “We had a fiduciary duty to use taxpayer dollars in the most appropriate way.”
                     Auto Team official Bloom told SIGTARP that he interpreted the commercially
                     reasonable approach as a way to “minimize taxpayer investment consistent with
                     getting the job done and creating a viable enterprise.”

                     Treasury’s definition of long-term viability focused on GM repaying taxpayers.
                     Auto Team officials Harry Wilson and Matthew Feldman told SIGTARP that they
                     each believed it would take five years for GM to repay TARP. Auto Team leader
                     Rattner told SIGTARP that the Auto Team spent a lot of time on this issue with
                     Dr. Summers who wanted to exit as soon as possible. Auto Team Leader Rattner
                     said the Auto Team did not know what that actually meant, but that it generally
                     would take five to eight years to divest when a government takes a position.
                     Former Secretary Geithner told SIGTARP that Treasury could not have a plan for
                     how long it would own GM stock. More than four years later, GM has not fully
                     repaid taxpayers and remains in TARP.8

                     GM’s restructuring plan, submitted to Treasury in February 2009, did not plan for
                     bankruptcy; instead it detailed the risks GM would face if it filed bankruptcy.
                     GM’s plan identified eight “key risks.” One risk was that Delphi, GM’s former
6
  When asked what authority was designated to the Auto Team related to GM’s restructuring and what remained with
  Dr. Summers and him, Secretary Geithner told SIGTARP that he and Dr. Summers would sign off on consequential
  strategic decisions. Mr. Rattner told SIGTARP that he met with Dr. Summers and Secretary Geithner regularly, but he
  had little interaction or communication with the rest of the Auto Task Force.
7
  There were generally defined principles in a report from the Administration for GM to achieve greater profitability,
  strengthen its balance sheet, increase its competitiveness, and develop fuel-efficient cars.
8
  As of June 13, 2013, there is $9.87 billion outstanding on Treasury’s TARP investment in GM. For that, Treasury
  owns 13.8% of GM common stock.


SIGTARP 13-003                                                                                            August 15, 2013
TREASURY’S ROLE IN THE DECISION FOR GM TO PROVIDE PENSION PAYMENTS TO DELPHI EMPLOYEES                                   6




                      subsidiary and largest parts supplier, which had been in bankruptcy since 2005,
                      had been unable to raise financing to exit bankruptcy and had underfunded the
                      pension plans of employees who had worked at Delphi when it was part of GM.9
                      GM’s restructuring plan stated, “If Delphi is unsuccessful in addressing its
                      underfunded pension plans and raising exit financing, it would represent a
                      significant risk to the Company’s revised plan.”

                      Prior to Delphi’s spinoff in 1999, all of its employees were covered by GM’s
                      pension plans, but GM had funded these pension plans at different levels. At the
                      time of the spinoff, GM had fully funded (at 123%) the expected payments
                      needed to cover the pension plan of Delphi salaried employees, but had
                      underfunded (at 69%) the pension plan of Delphi hourly employees. In 1999,
                      Delphi’s three largest unions representing hourly employees negotiated pension
                      benefit guarantees that, if Delphi could not fund its pensions, GM would “top up,”
                      or increase, pension benefit payments of the unions’ hourly retirees to their full
                      benefit levels under certain conditions (called “pension benefit guarantees,” or
                      “top-up agreements”). The three unions were the UAW, the International Union
                      of Electronic, Electrical, Salaried, Machine and Furniture Workers (“IUE”),10 and
                      the USW.11 At the time, Delphi’s salaried employees were not represented by a
                      union or organized as a group or association, and they did not negotiate or receive
                      top-up agreements.12




9
  Delphi was GM’s largest supplier of automotive systems, components, and parts, and GM was Delphi’s largest
   customer with annual purchases that ranged from approximately $6.5 billion to $10.2 billion from 2005 through 2008.
   The purpose of the spinoff, according to GM and Delphi executives, was to enable Delphi to establish a more
   competitive labor cost structure and to allow Delphi to manufacture and sell parts to other automakers.
10
   Effective October 1, 2000, the International Union of Electronic Workers merged with Communication Workers of
    America (“CWA”), becoming the IUE-CWA Industrial Division.
11
   When Delphi was spun off, unions represented about 95% of all Delphi hourly employees. The largest Delphi union
    in the U.S. was UAW, which represented roughly 72% of the hourly workforce. The other large unions were IUE and
    USW, which represented 24% and 4% of Delphi’s unionized hourly workforce in the U.S., respectively. GM entered
    into a memorandum of understanding to extend the agreements with each of the unions – UAW, IUE, and USW –
    when they were set to expire in 2007. Through the memorandum of understanding, GM agreed effectively to extend
    the benefit guarantees indefinitely.
12
   Despite the fact that GM had fully funded the salaried pension plans when it spun off Delphi in 1999, by 2001, funding
    levels for both salaried and hourly pension plans were below 100%. From 2001 to 2005, Delphi suffered losses and
    the company filed for bankruptcy in October 2005. According to Delphi officials interviewed by SIGTARP, Delphi
    remained committed to funding the hourly and salaried pension plans in the early stages of Delphi’s bankruptcy
    process between 2005 and 2007 and tried to preserve the plans. However, with the economic downturn in 2008,
    Delphi struggled to maintain the pension plans. According to the Delphi officials, various investors expressed interest
    in Delphi, but none wanted to purchase or invest in Delphi if it retained its pension liabilities.


SIGTARP 13-003                                                                                                August 15, 2013
TREASURY’S ROLE IN THE DECISION FOR GM TO PROVIDE PENSION PAYMENTS TO DELPHI EMPLOYEES                                    7




                        Treasury Plans for GM’s Bankruptcy, Replaces
                        GM’s CEO, and Rejects GM’s Restructuring Plan
                        On February 17, 2009, the day they received GM’s restructuring plan, the Auto
                        Team sent a memo to Auto Task Force chairs Dr. Summers and Secretary
                        Geithner with “first-blush impressions” of the auto companies’ restructuring
                        plans. As for GM, the memo listed four risks: (1) underfunding of pension plans;
                        (2) foreign subsidiaries; (3) “GM’s plan includes funding to purchase certain
                        Delphi assets, but Delphi will require other funding to exit bankruptcy, address its
                        pension liabilities and continue operations,” and the “failure of Delphi to
                        reorganize successfully will jeopardize GM’s restructuring plan”; and (4) GM’s
                        plan to reduce its dealer base versus foreign automakers’ dealer bases in North
                        America. Secretary Geithner told SIGTARP that he had no recollection of costs
                        related to Delphi or Delphi pension top-up issues and that the Auto Team could
                        work through Delphi issues on its own. Auto Team leader Rattner told SIGTARP
                        that there were no significant meetings between him and Dr. Summers or
                        Secretary Geithner related to the Delphi pensions.13

                        Before and after GM submitted its restructuring plan in mid-February 2009,
                        Treasury’s Auto Team was assessing the need for GM to file bankruptcy. In his
                        book Overhaul: An Insider’s Account of the Obama Administration’s Emergency
                        Rescue of the Auto Industry (“Overhaul”), Mr. Rattner stated that he thought
                        bankruptcy was inevitable in December 2008, before he formally started at
                        Treasury. Mr. Rattner stated in Overhaul that negotiations with unions, debt
                        holders, and others to meet the conditions in the TARP loan agreement had
                        “absolutely no chance of success.” Internal Treasury documents indicate that
                        most of the restructuring options under consideration by the Auto Team in
                        February 2009 involved some form of bankruptcy. A February 2009 analysis
                        conducted for the Auto Team by their financial consultant indicated that an out-
                        of-court settlement had a low chance of success and that a prearranged bankruptcy
                        had a moderate to high chance of success.

                        In his book Overhaul, Auto Team leader Rattner described briefing Secretary
                        Geithner on February 11, 2009, on restructuring options, nearly all of which
                        included bankruptcy. He recounted that Secretary Geithner thought bankruptcy
                        was probably inevitable and said, “We need to put foam on the runway.” An
                        Auto Team official also told SIGTARP that when he started at Treasury,
                        Secretary Geithner said the team should look at their role as laying “foam on the
                        runway” during this tumultuous time, which the Auto Team official interpreted as
                        looking for ways to soften the blow in the event of bankruptcy. Auto Team
                        official Feldman, a bankruptcy lawyer who had key responsibility for GM
                        bankruptcy planning, told SIGTARP, “By the end of February and beginning of

13
     An internal Treasury briefing agenda for a July 7, 2009, meeting with Dr. Summers and Secretary Geithner says
     “PBGC/pension,” but Mr. Rattner did not recall the briefing. Secretary Geithner told SIGTARP he did not recall any
     discussions or briefings related to Delphi pensions.


SIGTARP 13-003                                                                                              August 15, 2013
TREASURY’S ROLE IN THE DECISION FOR GM TO PROVIDE PENSION PAYMENTS TO DELPHI EMPLOYEES                                      8




                         March, I didn’t know how GM would do in bankruptcy but couldn’t see forward
                         without bankruptcy.”

                         The Auto Team worked independent of GM to prepare for a GM bankruptcy
                         under Section 363 of the bankruptcy code. An Auto Team official testified in a
                         deposition that 363 was selected because of speed, certainty, and the ability to
                         leave behind liabilities that a commercial buyer would not want in the new
                         company. Auto Team leader Rattner described the 363 sale in Overhaul as “the
                         fastest possible bankruptcy,” but he stated that they thought it would still take 6 to
                         15 months. Auto Team leader Rattner wrote in Overhaul that in March 2009,
                         Auto Team official Feldman made a critical discovery to shorten GM’s
                         bankruptcy. Feldman determined that the “marketing period” typically used to
                         identify potential asset purchasers in a 363 bankruptcy sale could be eliminated
                         where there is only one source of financing available, which, in this instance, was
                         the Government.

                         Mr. Rattner recounted in Overhaul that on March 19, 2009, while planning for
                         bankruptcy, the Auto Team discovered that GM had a $1 billion payment to
                         bondholders coming due June 1, 2009, but if Treasury allowed GM to make the
                         payment, it would be awarding 100 cents on the dollar to bondholders who were
                         only entitled to pennies.14 Auto Team officials told SIGTARP that the upcoming
                         payment would drive the date of GM’s bankruptcy. Despite the Auto Team’s
                         bankruptcy planning, then-GM president and chief operating officer (“COO”)
                         Frederick “Fritz” Henderson told SIGTARP that bankruptcy was not discussed
                         when GM met with Treasury in March 2009.

                         What followed was the Auto Team’s direct involvement in the decisions affecting
                         GM. Treasury’s Auto Team used their financial leverage as GM’s only lender to
                         significantly influence the decisions GM made during the time period leading up
                         to and through GM’s bankruptcy.

                         Treasury’s Auto Team Replaces GM’s CEO

                         It was increasingly clear to the Auto Team that GM, under the leadership of then-
                         chief executive officer (“CEO”) Rick Wagoner, was unwilling to move toward
                         bankruptcy. CEO Wagoner had been vocally and adamantly opposed to putting
                         GM into bankruptcy and had done little to no planning for the possibility of
                         bankruptcy. CEO Wagoner did not believe that the company could survive in
                         bankruptcy because consumers would not purchase cars from an automaker in
                         bankruptcy as there would be no guarantee that the company would be able to
                         fulfill its long-term warranty obligations. CEO Wagoner believed that customers
                         would view this as an unnecessary risk and avoid it by purchasing another


14
     Mr. Rattner stated in Overhaul that he told the Detroit Free Press that “bankruptcy is not our goal,” while “all the
     while we were preparing for it.” That interview took place March 16, 2009.


SIGTARP 13-003                                                                                                   August 15, 2013
TREASURY’S ROLE IN THE DECISION FOR GM TO PROVIDE PENSION PAYMENTS TO DELPHI EMPLOYEES                                 9




                         automaker’s automobiles. He was concerned that a lack of consumer confidence
                         would hurt sales needed for the company to continue to exist.

                         The Auto Team disagreed with Wagoner’s view and believed that bankruptcy was
                         the only path remaining for GM to succeed. On March 27, 2009, Auto Team
                         leader Rattner called CEO Wagoner and GM then-president and COO Henderson
                         to separate meetings. Mr. Henderson told SIGTARP that he felt Mr. Rattner was
                         interviewing him. He was correct. Later that day, at Mr. Rattner’s request,
                         Wagoner resigned and Mr. Rattner asked Mr. Henderson to serve as CEO.
                         Henderson told SIGTARP that GM’s Board of Directors was upset by the
                         replacement of Mr. Wagoner and felt that their authority to appoint the CEO had
                         been usurped by Treasury. Mr. Henderson described his appointment as CEO as
                         a “principal source of friction” between the board and Treasury. Mr. Henderson
                         told SIGTARP that the Auto Team’s decision to replace Mr. Wagoner with their
                         selection sent a message to GM executives and was an early indicator that
                         Treasury, as the main investor in GM, would have significant influence over
                         GM’s decisions and operations.

                         Treasury’s Auto Team Rejects GM’s Restructuring Plan

                         Three days later, on March 30, 2009, Treasury rejected GM’s restructuring plan
                         as not viable, stating in its Viability Determination Fact Sheet, “Their best chance
                         at success may well require utilizing the bankruptcy code in a quick and surgical
                         way.” Treasury also stated in its Viability Determination that although GM had
                         made meaningful progress in its turnaround plan over the last few years, the
                         progress had been “far too slow.” Treasury’s Viability Determination stated that
                         the deadline had nearly passed for the three TARP-required conditions:
                         (1) establishing a new agreement with UAW to reduce labor costs; (2) obtaining
                         all necessary approvals for changes to the VEBA retiree health care trust, which
                         included UAW’s approval; and (3) commencing an offer to bondholders to
                         exchange debt for equity. The Auto Team viewed these conditions as a floor, not
                         a ceiling. Treasury also indicated other “key factors” for GM’s viability, such as
                         reducing the number of brands and dealerships, and reducing the cash cost of
                         legacy liabilities, including employee pensions and health care costs. These were
                         key areas of focus for Treasury’s Auto Team.15

                         Additionally, in its Viability Determination, Treasury stated that GM needed a
                         “substantially more aggressive restructuring plan” to make GM viable, gave GM
                         until June 1 to resubmit the plan, and gave GM an additional $6 billion in TARP
                         funds – enough working capital to continue operations over the following
                         60 days. GM’s then-CFO Young told SIGTARP that GM executives did not
                         know how they would obtain the financing to restructure the company and they

15
     SIGTARP previously reported on the termination of dealerships in its audit, “Factors Affecting the Decisions of
     General Motors and Chrysler to Reduce their Dealership Networks,” released 7/19/2010.



SIGTARP 13-003                                                                                                August 15, 2013
TREASURY’S ROLE IN THE DECISION FOR GM TO PROVIDE PENSION PAYMENTS TO DELPHI EMPLOYEES           10




                  did not know how they could shed the liabilities required by the TARP loan
                  agreement, calling the situation “dire.”

                  An Auto Team official told SIGTARP that broader economic considerations
                  served as the catalyst for Treasury to offer GM the opportunity to develop a new
                  restructuring plan. The Auto Team official told SIGTARP that GM’s success or
                  failure had “broader economic ramifications.” According to that member and
                  other Auto Team officials, the Auto Team was concerned that GM’s collapse
                  could have a cascading effect throughout the interconnected American automotive
                  industry by causing automotive parts manufacturers and auto dealerships to fail,
                  which could then threaten the stability of American automakers during an
                  economic crisis. When announcing the additional TARP funds, President Obama
                  stated, “We cannot, and must not, and we will not let our auto industry simply
                  vanish.”




SIGTARP 13-003                                                                           August 15, 2013
TREASURY’S ROLE IN THE DECISION FOR GM TO PROVIDE PENSION PAYMENTS TO DELPHI EMPLOYEES             11




                  Treasury’s Auto Team and GM Develop a
                  New GM Restructuring Plan
                  With only 60 days of funding from TARP, GM developed a new restructuring
                  plan with significant influence and leverage from Treasury’s Auto Team.
                  Treasury’s influence and leverage over GM went beyond Treasury’s rights under
                  the TARP loan agreement. Under the TARP loan agreement, Treasury had the
                  right to approve or prohibit transactions over $100 million that were not in the
                  ordinary course of GM’s business or any increase in pension obligations. An
                  Auto Team official stated in a deposition, “Obviously, under 100 million we
                  didn’t have any say, and we didn’t have any ability to be asked for our consent or
                  to stop it or do anything else.” While this statement describes Treasury’s legal
                  rights, SIGTARP found that Treasury’s Auto Team had significant influence over
                  GM’s decisions, even in the areas where Treasury’s consent was not required
                  under the TARP loan agreement. One GM official told SIGTARP, “Ultimately it
                  was that GM is not in control. And GM is totally dependent.”

                  Then-CEO Henderson told SIGTARP that the Auto Team was concerned about
                  how to deleverage the company’s balance sheet, and that they wanted to start
                  from ground zero and build GM back up, restructuring everything. Then-CEO
                  Henderson told SIGTARP, “The Auto Team from Day 1 looked at everything in
                  detail. The Auto Team was uncomfortable with the balance sheet. Harry Wilson
                  and the Auto Team were taking apart the plan step by step and rebuilding it step
                  by step in Detroit.”

                  An Auto Team official told SIGTARP the Auto Team’s review was “very deep
                  and very thorough.” The same Auto Team official told SIGTARP that the Auto
                  Team provided “direction not decisions. We were skeptical on all decisions. We
                  had to approve the decisions, show us the data.” The official told SIGTARP, “It
                  wasn’t a fight. It was a debate. We didn’t involve ourselves in any day-to-day
                  decisions.” The Auto Team official told SIGTARP that he would have a call
                  every evening at 10 p.m. with GM’s then-CFO Young. The Auto Team official
                  told SIGTARP, “There was a feeling that the Auto Team had to carefully manage
                  GM, which would have given away Treasury’s money without blinking.”

                  Rather than merely providing advice, the Auto Team used their leverage as GM’s
                  largest lender to influence and set the parameters for GM to make decisions. An
                  Auto Team official told SIGTARP that Treasury was GM’s largest lender and
                  investor, GM’s “only lifeline.” Another Auto Team official testified before
                  Congress, “While Treasury was closely involved in pressing GM management for
                  the major changes needed to make the company profitable, we were very careful
                  to never get involved in the specific decisions on plant closures, dealer closures,
                  or the like. We would agree with GM on the broad strokes, which was to create a
                  world-class auto business, and the key components of that, and they would make




SIGTARP 13-003                                                                            August 15, 2013
TREASURY’S ROLE IN THE DECISION FOR GM TO PROVIDE PENSION PAYMENTS TO DELPHI EMPLOYEES                              12




                     the detailed decisions that needed to be made to implement those broad strokes.”16
                     As SIGTARP has previously reported, in its Dealership Audit,17 in response to the
                     Auto Team’s rejection of GM’s restructuring plan and its explicit comment that
                     GM’s “pace” of dealership closings was too slow and an obstacle to its viability,
                     GM substantially accelerated its dealership termination timelines. Instead of
                     gradually reducing its network by approximately 300 dealerships per year through
                     2014, as GM had proposed in the plan submitted to Treasury, GM responded to
                     the Auto Team’s direction by terminating the ability of 1,454 dealerships to
                     acquire new GM vehicles and giving them until October 2010 to wind down
                     operations. Although the Auto Team did not tell GM which dealerships to close,
                     GM made the decision to accelerate the dealership closings with significant
                     Treasury influence.

                     As an Auto Team official explained to SIGTARP, Treasury did not want to start
                     running the company, but when dealing with taxpayer resources, “We, the
                     Government, were ultimately holding that purse string,” and Treasury reserved
                     the right to tell GM that they would not back them. Another Auto Team official
                     told SIGTARP that there were no instances where the Auto Team “crammed” a
                     decision on GM, “but we were investing a lot of money, and we had the
                     opportunity to disagree.” This same Auto Team official told SIGTARP that the
                     Auto Team did not impose ultimatums on GM. As this official told SIGTARP,
                     “GM realized that there was no other available source of money.”

                     An Auto Team official told SIGTARP that the Auto Team’s approach with GM
                     was to “push them” and to “question them.” Another Auto Team official told
                     SIGTARP the Auto Team “pushed GM toward making the changes necessary to
                     become a viable company.” A GM official told SIGTARP, “They [the Auto
                     Team] were pushing us to be tougher and take more significant actions other than
                     what we would have done on our own volition.” When one Auto Team official
                     was asked by SIGTARP how the Auto Team conveyed their preference or nudged
                     GM to see things the way the Auto Team saw them, given that ultimately GM
                     could do its own thing, the Auto Team official said, “Well, they could, but then
                     they couldn’t exist. I mean, as I said, as the lender we had a fair amount of
                     leverage.”

                     Then-CFO Young told SIGTARP that the Auto Team was “being hard on GM
                     and scrutinizing how much money GM needed.” Mr. Young told SIGTARP that
                     the Auto Team “was persistently pressing GM executives to cut costs.” An Auto
                     Team official told SIGTARP, “We thought GM could be viable on its own if it
                     could reduce costs and liabilities.” Auto Team leader Rattner told SIGTARP that
                     GM officials had been too generous in the past and the Auto Team had to dial


16
   Hearing before the Subcommittee on TARP, Financial Services and Bailouts of Public and Private Programs of the
   Committee on Oversight and Government Reform, 7/10/2012.
17
   SIGTARP-10-008, “Factors Affecting the Decisions of General Motors and Chrysler to Reduce their Dealership
   Networks,” 7/19/2010.


SIGTARP 13-003                                                                                          August 15, 2013
TREASURY’S ROLE IN THE DECISION FOR GM TO PROVIDE PENSION PAYMENTS TO DELPHI EMPLOYEES                                   13




                        them back. The Auto Team specifically pressed GM to be less generous in
                        relation to Delphi and pensions.

                        Cutting Costs Related to Delphi

                        Auto Team leader Rattner told SIGTARP that Delphi was an example of where
                        the Auto Team was less generous than GM. According to one of the Auto Team
                        members, Messrs. Matt Feldman and Harry Wilson took the lead on Delphi
                        issues. Mr. Wilson testified before Congress, “Delphi was bleeding
                        approximately $150 million in cash per month. GM was supporting Delphi
                        because Delphi was the sole supplier for certain critical GM parts, so a Delphi
                        liquidation would have shut down all of General Motors. This was an
                        unsustainable proposition, both for GM, and for the American taxpayer.” Mr.
                        Wilson’s view, according to an email he wrote, was that they would look to
                        eliminate all obligations, given the staggering cost of supporting Delphi.

                        A GM official told SIGTARP the Auto Team’s reaction was that Delphi was
                        costly to GM, and that GM should not be assuming more liabilities than
                        necessary. That same GM official told SIGTARP, “We did not have the leverage
                        to tell them to pound sand.” For example, in March 2009, Delphi wanted an
                        additional $150 million from GM for operating costs and for GM to purchase
                        Delphi’s global steering business. Because this was above the $100 million
                        threshold, Treasury’s consent was required under the TARP loan agreement. The
                        Auto Team did not consent. An Auto Team official told SIGTARP that Delphi
                        was identified as a risk, but that “obviously we would continue to urge GM, you
                        know, don’t be irresponsible about it, be tough. Give as little as you have to, but
                        try to help get Delphi done…you can’t write a blank check.” Auto Team leader
                        Rattner told SIGTARP that GM would have continued to squander a huge amount
                        of dollars on Delphi.

                        Cutting Pension Costs

                        According to Auto Team leader Rattner, pensions were another area where the
                        Auto Team “encouraged” GM to cut costs. GM had a pay-as-you-go pension plan
                        for salaried employees that was not funded and GM salaried employees and
                        retirees wanted their full pensions, but Mr. Rattner told SIGTARP that the Auto
                        Team wanted cuts to those benefits.

                        In addition to pension issues relating to GM employees, between February and
                        May 2009, GM and the Auto Team officials discussed and analyzed GM’s
                        liabilities related to Delphi’s pensions. GM officials told SIGTARP that GM
                        needed PBGC to release liens on Delphi assets so Delphi could successfully
                        emerge from bankruptcy.18 According to one GM official interviewed by
18
     PBGC held liens on certain Delphi assets that, according to a Delphi official, an investor or purchaser of Delphi would
     want free and clear title.


SIGTARP 13-003                                                                                                 August 15, 2013
TREASURY’S ROLE IN THE DECISION FOR GM TO PROVIDE PENSION PAYMENTS TO DELPHI EMPLOYEES                             14




                     SIGTARP, “Ultimately to get Delphi out of bankruptcy, we needed the [pension]
                     plans to be terminated.” PBGC officials told SIGTARP that PBGC advocated
                     that GM go beyond the top-ups and take back (assume the full cost) of both
                     Delphi’s hourly and salaried pension plans. The Auto Team and GM identified at
                     least three options: (1) for New GM to agree to the top-up for the Delphi hourly
                     employees consistent with the preexisting agreements (full cost of pensions less
                     PBGC payout) (at a projected cost of approximately $1-1.5 billion for the UAW,
                     IUE, and USW hourly employees); (2) for New GM to take back (assume) all of
                     Delphi’s pension plans, paying all obligations under the plans without a payout
                     from PBGC (at a projected cost of $5.4 billion); and (3) for New GM to take on
                     no obligation to top up or take back any Delphi pension plans (zero cost).19

                     GM took the position that Treasury’s consent was required. A PBGC email
                     received by Auto Team officials stated, “In discussions with Delphi and directly
                     with PBGC, GM has stated that it cannot assume responsibility for either the
                     previously agreed-to hourly plan pension obligations or the Delphi’s salaried plan
                     pension obligations, as doing so would represent taking on additional pension
                     obligations in violation of the pension covenant in GM’s TARP loan.” A
                     February 2009 PBGC document stated, “Delphi believes that GM, in refusing to
                     discuss further pension plan assumptions, may be looking to the to-be-appointed
                     car czar [Rattner] to mandate that GM assume Delphi pensions as part of GM’s
                     continued use of TARP money.”20

                     Auto Team official Feldman negotiated with PBGC on behalf of GM, which
                     contributed to an expectation that the presence of Treasury could potentially
                     change the outcome. Mr. Rattner told SIGTARP that having the Auto Team work
                     directly with PBGC was viewed as more efficient because it was Government to
                     Government. Additionally, at least one GM official told SIGTARP that GM
                     thought there was some benefit to Treasury taking the lead on dealing with the
                     PBGC because it was “Government agency to Government agency” and Treasury
                     would get a better deal for GM. The presence of Treasury as a Government
                     agency created expectations on PBGC’s part that decisions on what obligations
                     GM would take on related to the Delphi pensions would proceed differently than
                     what would have normally occurred in PBGC’s negotiations with a private
                     company and potentially save PBGC billions of dollars. A PBGC official told
                     SIGTARP when discussing the likelihood of GM’s absorption of the Delphi
                     pension plans that “as [Treasury] got involved, we were more hopeful.” In a
                     deposition, Mr. Feldman stated that the PBGC “asked us whether we would force
                     General Motors to take the plan on.” If GM were to assume the full cost of the
                     Delphi hourly plan, it would require Treasury’s approval. There was a split

19
   This audit was conducted in coordination with GAO to avoid excessive duplication of efforts. GAO reviewed PBGC’s
   termination of Delphi’s hourly and salaried pension plans and other PBGC issues. The objectives of SIGTARP’s
   audit did not involve a review of PBGC’s termination of the Delphi pension plans.
20
   Later, an April 17, 2009, PBGC document makes it clear that Delphi wanted the pension plans to be transferred to GM
   (“with support from Treasury”) but that “GM contends it cannot afford the Plans, and that covenants in the Treasury
   loan agreement prevent GM from taking on new pension liabilities.”


SIGTARP 13-003                                                                                           August 15, 2013
TREASURY’S ROLE IN THE DECISION FOR GM TO PROVIDE PENSION PAYMENTS TO DELPHI EMPLOYEES           15




                  within the Auto Team on whether GM should assume the Delphi hourly plan,
                  with Mr. Feldman in favor of GM assuming the hourly plan (which would go
                  beyond the top-up), and Mr. Wilson not in favor of assuming it. The PBGC
                  official told SIGTARP, “As it relates to the possibility of GM sucking up the
                  hourly plan…I knew what GM’s position was. It didn’t have to do anything with
                  GM. If there was any possibility that it was going to happen, it was going to
                  come from Treasury. It would be Treasury folks because they had the right of
                  refusal and could dictate what was going to happen.”

                  Delphi salaried retirees and Delphi officials also hoped Treasury’s presence
                  would make a difference in whether GM would take on obligations for Delphi
                  pensions. Treasury’s Auto Team met with representatives from the Delphi
                  salaried retirees on more than one occasion. During those meetings, the salaried
                  retirees asked the Auto Team to consider fairness in making their pensions whole.
                  The Auto Team also met with Delphi officials. Delphi’s then-CFO John Sheehan
                  told SIGTARP that from his perspective, GM was deferring decision making on
                  all subjects. He also told SIGTARP, “GM wasn’t in a position to dictate. Harry
                  [Wilson] and Matt [Feldman] were the decision makers and the drivers on how
                  this would all occur – in my view.”




SIGTARP 13-003                                                                           August 15, 2013
TREASURY’S ROLE IN THE DECISION FOR GM TO PROVIDE PENSION PAYMENTS TO DELPHI EMPLOYEES                  16




                        Treasury’s Role in the Decision for GM To File
                        Bankruptcy
                        SIGTARP found that Treasury’s Auto Team directed GM’s restructuring efforts
                        toward bankruptcy. An Auto Team official told SIGTARP, “We didn’t decide to
                        file a bankruptcy. We decided to support a bankruptcy.” That same Auto Team
                        official told SIGTARP that GM decided to file bankruptcy and GM came to the
                        conclusion that it could not reorganize without bankruptcy, and the question for
                        Treasury was “do we support a GM filing or not?” While it is technically true
                        that GM had to decide to file bankruptcy, it was the Auto Team that took steps to
                        signal to GM their strong preference for bankruptcy and bring significant
                        influence over GM’s decision to file bankruptcy.

                        GM and Treasury’s Auto Team had different approaches as to how to proceed in
                        order to create a sustainable GM. GM’s executives continued to prefer a
                        restructuring of the company outside of the bankruptcy process, while the Auto
                        Team preferred bankruptcy. According to Auto Team leader Rattner in Overhaul,
                        the Auto Team had already determined that there was no alternative to bankruptcy
                        before rejecting GM’s restructuring plan on March 30, 2009. The Auto Team’s
                        March 27, 2009, replacement of GM CEO Wagoner, who did not favor
                        bankruptcy, and the choice of Mr. Henderson as CEO, signaled the Auto Team’s
                        preference for bankruptcy and directed GM’s restructuring efforts toward
                        bankruptcy. Mr. Henderson told SIGTARP that his view on bankruptcy for GM
                        was different than Wagoner’s. Once Treasury replaced Mr. Wagoner with Mr.
                        Henderson as CEO, there was a greater willingness by GM to consider
                        bankruptcy. On April 1, 2009, as one of his first acts as the new CEO, Mr.
                        Henderson told GM employees that bankruptcy was likely. However, despite that
                        statement, Mr. Henderson told SIGTARP that his preferred approach was to
                        restructure GM by completing a voluntary bond exchange – an offer proposed to
                        bondholders to convert their debt to equity – hoping to avoid bankruptcy.

                        Auto Team officials first raised the prospect of an expedited bankruptcy with GM
                        during the first week of April 2009, according to then-CFO Young. In his
                        interview with SIGTARP, Young said the Auto Team “highly suggested” and felt
                        “pretty strongly” that a Section 363 bankruptcy was the “best approach” because
                        it would be quicker to complete than a normal bankruptcy that could take 9 to 12
                        months. Then-CEO Henderson told SIGTARP the Auto Team began to outline
                        the 363 process for GM, with GM’s 363 planning being similar to what the Auto
                        Team was doing with Chrysler, but Chrysler was much simpler.21 Then-CEO
                        Henderson told SIGTARP that Treasury’s view was that speed had real power,
                        and that to do a deal in a commercial and fast way could only be accomplished
                        with a 363 sale.


21
     Chrysler filed a 363 bankruptcy on April 30, 2009.


SIGTARP 13-003                                                                                 August 15, 2013
TREASURY’S ROLE IN THE DECISION FOR GM TO PROVIDE PENSION PAYMENTS TO DELPHI EMPLOYEES           17




                  Then-CFO Young told SIGTARP that GM thought of bankruptcy as “Plan B.”
                  Then-CEO Henderson described “Plan A” as the bond exchange. CFO Young
                  told SIGTARP that with the right terms on the bond exchange, GM was hoping to
                  reduce its liabilities enough to avoid bankruptcy. An Auto Team official told
                  SIGTARP that the Auto Team did not support the bond exchange and felt that a
                  bond exchange alone was unlikely to restructure GM’s balance sheet sufficiently
                  to make GM viable. In fact, at least one Auto Team official told SIGTARP that
                  he opposed GM’s decision to proceed with the bond exchange. This same Auto
                  Team official told SIGTARP that by the third week of April it was clear that GM
                  needed to be shepherded through a prepackaged bankruptcy. The Auto Team also
                  directed GM’s restructuring efforts toward bankruptcy by discussing with GM
                  their preference that 90% of bondholders participate in the bond exchange, which
                  commenced on April 27, 2009. Henderson told SIGTARP that Treasury set the
                  “level of acceptance” of the bond exchange “very high,” making bankruptcy more
                  likely.

                  Then-CEO Henderson told SIGTARP that it was not clear that bankruptcy was
                  the only option until the bond exchange failed. GM would need to file
                  bankruptcy by June 1, 2009, when a $1 billion bond payment came due. GM’s
                  then-CFO Young told SIGTARP that Treasury did not want to loan GM $1 billion
                  to make this payment.




SIGTARP 13-003                                                                           August 15, 2013
TREASURY’S ROLE IN THE DECISION FOR GM TO PROVIDE PENSION PAYMENTS TO DELPHI EMPLOYEES           18




                  Treasury Agreed To Fund GM’s Bankruptcy with
                  $30.1 Billion from TARP, but Only for 40 Days
                  Treasury determined that GM would need $30 billion, but the Auto Team was
                  concerned about giving the TARP funds in a loan that would be too much debt on
                  GM’s balance sheet, so the Auto Team proposed to senior Treasury officials that
                  Treasury fund GM’s bankruptcy with a loan that would convert to common stock
                  ownership in New GM – the purchaser of Old GM’s assets in bankruptcy. This
                  would mean that the Government would have a substantial ownership interest in a
                  private company. According to Rattner in Overhaul, the Auto Team discussed it
                  with Lawrence Summers on May 11, 2009. Dr. Summers, Secretary Geithner,
                  and ultimately President Obama approved an additional $30.1 billion in a TARP
                  loan (in the form of a debtor-in-possession (“DIP”) loan) that, when combined
                  with the $19.4 billion in prior TARP injections, totaled $49.5 billion in TARP
                  funds in GM. The TARP investment in GM would convert to 61% Government
                  ownership of common stock in New GM.

                  Treasury conditioned the TARP financing on GM exiting bankruptcy in 40 days,
                  a requirement created by the Auto Team. The TARP loan, effective on June 1,
                  2009, provided that the loan would default if GM failed to obtain certain
                  bankruptcy court orders acceptable to Treasury by July 10, 2009 (40 days later).
                  Auto Team leader Rattner has referred to GM’s bankruptcy as a “quick-rinse
                  bankruptcy.” A quick-rinse bankruptcy is structured to move through legal
                  proceedings faster than the average bankruptcy. Mr. Rattner recounted in
                  Overhaul that GM hired prominent bankruptcy attorney Harvey Miller, who told
                  Auto Team official Wilson that the timeline was “impossibly aggressive” and that
                  “it’s never been done before.” GM’s then-CFO Young told SIGTARP that
                  although GM agreed that a drawn-out bankruptcy would negatively impact
                  consumers’ perceptions about GM, GM thought it would take at least two to three
                  months to complete bankruptcy and the 40 days did not seem realistic.

                  SIGTARP found that Treasury conditioned giving GM $30.1 billion in TARP
                  funds on a quick-rinse bankruptcy that would end in 40 days because Auto Team
                  officials thought it was the best way to save the American automobile industry,
                  concerned that GM could not survive a lengthy bankruptcy and GM’s failure
                  would have broader systemic consequences. Treasury Auto Team officials were
                  concerned that if GM’s bankruptcy was prolonged, consumers would stop
                  purchasing GM’s automobiles, and GM would likely fail. As one Auto Team
                  official explained to SIGTARP, consumers might be cautious about buying cars
                  from a bankrupt automaker. He told SIGTARP that “…one of the things you
                  worry about when you buy a car is getting the car serviced.” Therefore, in a
                  lengthy bankruptcy, GM would run the risk of consumers saying, “The heck with
                  it, I’ll buy someone else’s car,” the Auto Team official told SIGTARP. Once the
                  decision to have GM go into bankruptcy was made, the same Auto Team official




SIGTARP 13-003                                                                           August 15, 2013
TREASURY’S ROLE IN THE DECISION FOR GM TO PROVIDE PENSION PAYMENTS TO DELPHI EMPLOYEES                 19




                  told SIGTARP, “It was in our interest to try to expedite the bankruptcy, if we
                  could,” given the risk of “getting in and getting stuck” in bankruptcy.
                  Treasury had leverage to set conditions on TARP funds, even if it was a
                  timeframe that did not seem realistic to GM and had never been done before. If
                  GM’s bankruptcy was not completed within the 40 days, GM risked losing its
                  only source of financing. GM also risked losing its purchaser in bankruptcy,
                  given that Treasury would become the majority owner of New GM. Treasury
                  viewed the 40-day timeframe as a real deadline. One Auto Team official told
                  SIGTARP that Treasury was willing to “walk away” rather than put in “a huge
                  amount more. We advocated and put in a $30 billion DIP. If you let people
                  believe you would have done anything, that number could have been multiples of
                  that.” That same Auto Team official said they tried to be “commercial.” Another
                  Auto Team official testified in a deposition that if the 40-day timeframe was not
                  met, “We expect the company to liquidate” but “[GM] is always free to try to find
                  alternative forms of financing.”

                  “Cherry-picking” Assets and Liabilities

                  Although Treasury, through its Auto Team, had significant leverage and influence
                  on GM’s decisions and operations before the decision to file bankruptcy,
                  Treasury’s influence over GM deepened after Treasury decided to fund GM’s
                  bankruptcy and become the majority owner of New GM. SIGTARP found that
                  with their leverage as the purchaser of GM’s assets in bankruptcy, Treasury’s
                  Auto Team had significant influence on GM to make specific decisions that were
                  in keeping with Treasury’s preferences. Then-CFO Young told SIGTARP, “We
                  put forward recommendations, but at the end of the day, the purchaser [Treasury]
                  makes the final decision.” One Auto Team official told SIGTARP that “We
                  approve technically everything because we don’t have to do the DIP [bankruptcy
                  loan]. But no, not in the micro. I mean it wasn’t, you know you bring us this, we
                  approve this, we approve that. It was bring us a plan and we do a DIP or we don’t
                  do a DIP.” Another Auto Team official testified in a deposition that the leverage
                  Treasury had with Old GM was that Treasury was the only buyer for GM’s assets.
                  That same Auto Team official called Treasury’s leverage “considerable” because
                  the alternative was “catastrophic,” adding that he meant liquidation.

                  As explained by an Auto Team official in a deposition, the 363 bankruptcy sale
                  allowed New GM and the Auto Team to assume Old GM’s assets and “cherry-
                  pick” the liabilities that a “commercial buyer” would want and New GM would
                  need. As that Auto Team official stated in a deposition, “It is up to the purchaser
                  to exclude or assume liabilities.” The Auto Team official further testified in the
                  deposition, “It is my understanding that as the buyer, we get to determine which
                  assets are, you know, assets we would buy and which liabilities” we would take
                  on. This same Auto Team official told SIGTARP that “our general perspective,
                  and in general the right way to do a 363 sale as a buyer, is to assume all assets
                  unless explicitly excluded, and to reject all – to leave behind all liabilities unless
                  explicitly assumed.” GM’s then-CFO Young told SIGTARP that GM and the


SIGTARP 13-003                                                                                August 15, 2013
TREASURY’S ROLE IN THE DECISION FOR GM TO PROVIDE PENSION PAYMENTS TO DELPHI EMPLOYEES                             20




                        Auto Team went down GM’s balance sheet (including pensions and the supplier
                        base), going over some line items in great detail.

                        Without policies, procedures, or guidelines interpreting how to make
                        commercially reasonable decisions, Treasury’s Auto Team made some decisions
                        on which liabilities New GM would assume that were not commercially
                        necessary, but the Auto Team called the decision “commercial” because it could
                        factor into public relations and the image of New GM. One Auto Team official
                        testified in a deposition that the Auto Team requested that GM identify
                        “politically sensitive” liabilities. Then-CFO Young told SIGTARP that this
                        exercise was about identifying liabilities that might present a public relations
                        challenge if New GM did not assume them. He also told SIGTARP that assuming
                        these liabilities conflicted with taking a strictly commercial approach because GM
                        could operate without them. For example, the Auto Team official testified in the
                        deposition that the Auto Team concluded that it was not commercially necessary
                        for New GM to assume product liabilities. However, New GM assumed those
                        liabilities because, according to the Auto Team official, failure to assume them
                        would impact consumers’ confidence in GM’s products, which the Auto Team
                        official said was a commercial basis.

                        In another instance, broader considerations, rather than just a commercially
                        reasonable approach, were weighed by the Auto Team when they considered the
                        possible closure of GM’s headquarters in Detroit.22 According to an Auto Team
                        official, GM and the Auto Team considered moving GM’s headquarters out of
                        Detroit to its Technical Center located outside of the city because the move would
                        consolidate GM’s management operations and save money. According to
                        Mr. Rattner’s account in Overhaul, around May 2009, CEO Henderson told
                        Mr. Rattner that the move would cut GM’s costs and, therefore, Mr. Rattner
                        initially supported the initiative. Nevertheless, Rattner wrote in Overhaul that
                        White House and Treasury officials expressed concern about the economic impact
                        of the move on the city of Detroit, and they retained the Detroit location.

                        Deals with Major Stakeholders Before Bankruptcy

                        According to an Auto Team official, as the buyer, Treasury determined which
                        assets to buy and which liabilities to take on. The Auto Team established a
                        hierarchy of importance of stakeholders and issues that had to be completed prior
                        to GM’s bankruptcy filing to ensure its success. Two liabilities that Treasury had
                        already decided to assume were a new collective bargaining agreement with
                        GM’s union, the UAW, and an agreement with GM’s bondholders. A quick-rinse
                        bankruptcy necessitates that major stakeholders negotiate and reach consensus
                        prior to the proceeding in order to prevent objections being filed in court by
                        essential parties, which could delay the process. An Auto Team official told
22
     An Auto Team official told SIGTARP that the decision to retain GM’s headquarters in Detroit was impacted by
     broader considerations.


SIGTARP 13-003                                                                                            August 15, 2013
TREASURY’S ROLE IN THE DECISION FOR GM TO PROVIDE PENSION PAYMENTS TO DELPHI EMPLOYEES              21




                  SIGTARP that the two important stakeholders were the bondholders and the
                  UAW. The only question was the terms of those liabilities for New GM.

                  An Auto Team official told SIGTARP that the strength of the negotiating parties
                  during GM’s bankruptcy and throughout labor negotiations was dictated by the
                  leverage each group held. The looming June 1 bond payment and the 40-day time
                  constraint on the bankruptcy limited the time for negotiation and sent a powerful
                  message to GM and the major stakeholders. With no indication that Treasury
                  would extend the 40 days, GM and its major stakeholders were required to reach a
                  deal prior to bankruptcy or risk GM running out of funding and having to
                  liquidate. Auto Team leader Rattner stated in Overhaul that the 40-day deadline
                  was the financial equivalent of “putting a gun to the heads of the bankruptcy
                  judge, GM’s stakeholders, and of course Team Auto itself.”

                  Negotiations took place on May 18-19 at Treasury headquarters and at the offices
                  of Treasury’s lawyers in Washington, D.C. According to one Auto Team official,
                  the UAW and the bondholders were kept “in the dark” during “parallel
                  negotiations” as deals were negotiated. According to Auto Team official
                  Feldman’s professional biography, “The Auto Team conducted complex
                  negotiations with all major constituents of both companies [GM and Chrysler],
                  including Fiat SpA (which now runs Chrysler), the United Auto Workers and
                  major creditors of both auto makers under a compressed timeline.” Another Auto
                  Team official testified in a deposition that Treasury represented the owners of
                  New GM in the negotiations. Mr. Wilson told SIGTARP that he and Mr. Bloom
                  “set the tenor” for the talks with the UAW, while he and Mr. Feldman “set the
                  tone” for the talks with bondholders.

                  Treasury’s Role in Pre-Bankruptcy Deal with GM’s Bondholders

                  SIGTARP found that Treasury made a deal with the bondholders prior to GM
                  filing bankruptcy because of the bondholders’ leverage to object to and prolong
                  the bankruptcy. An Auto Team official told SIGTARP that establishing a deal
                  with the bondholders would eliminate a major risk of delay in bankruptcy court.
                  Auto Team officials told SIGTARP that GM’s bondholders had the leverage to
                  object to and prolong GM’s bankruptcy. At the time of GM’s bankruptcy,
                  bondholders held approximately $27.2 billion of GM’s unsecured debt, which,
                  according to a GM public filing, “comprise[d] substantially all of Old GM’s debt
                  and a significant majority of the total unsecured claims against Old GM.” An
                  Auto Team official explained that the bonds were owned by millions of people
                  around the world, some bonds were 100 years old, and without a settlement
                  before bankruptcy, it would have been painstakingly difficult to try to solicit each
                  bondholder to approve any bankruptcy plans, which would have taken at least
                  nine months.

                  Mr. Feldman, who had primary responsibility within the Auto Team for
                  negotiating with the bondholders, told SIGTARP he worked with representatives


SIGTARP 13-003                                                                              August 15, 2013
TREASURY’S ROLE IN THE DECISION FOR GM TO PROVIDE PENSION PAYMENTS TO DELPHI EMPLOYEES                      22




                      of GM’s bondholders to reach the agreement that would reduce GM’s
                      indebtedness and clear the path for GM’s quick-rinse bankruptcy, but he would
                      not have given them everything simply to get a deal. Auto Team leader Rattner
                      stated in Overhaul, “We valued the package at about 12 to 15 cents on the dollar,
                      more than what they deserved (zero)...” CEO Henderson explained to SIGTARP
                      that in the bankruptcy, Treasury was senior to the bondholders and the VEBA
                      trust. If GM’s bondholders agreed not to oppose GM’s bankruptcy, Treasury
                      would provide additional consideration to Old GM during the bankruptcy
                      proceeding, to the benefit of GM’s bondholders.23 CEO Henderson told
                      SIGTARP that Treasury was in a position to provide bondholders with a better
                      recovery than under the bond exchange. This was because Treasury would own
                      most of the equity of New GM, and, according to Henderson, equity was
                      something only Treasury could provide. When asked whether GM was
                      authorized to negotiate with bondholders for a larger slice of equity (stock), an
                      Auto Team official testified in a deposition that, for matters about what capital
                      (stock in New GM) Treasury would be willing to extend, the only one with
                      authority was Treasury.

                      Treasury’s Role in Pre-Bankruptcy Deal with UAW, Which Included
                      New GM Assuming the Top-Up of Pensions

                      Treasury’s requirement in the December 2008 TARP loan agreement that GM
                      reach a new deal with the UAW, Treasury’s conditioning TARP funds on a 40-
                      day quick-rinse bankruptcy, and UAW’s leverage to stall the bankruptcy or strike
                      pressured GM on “getting the deal done” with the UAW. The UAW had
                      extensive leverage representing approximately 50,000 GM employees at the time
                      of GM’s restructuring – 99% of GM’s unionized workforce (according to one
                      Auto Team official). Other Delphi and GM executives, as well as Government
                      and UAW officials, corroborated in separate interviews with SIGTARP that
                      UAW had significant leverage due to the threat of a labor disruption. One GM
                      official told SIGTARP, “You couldn’t run this play without the agreement of the
                      UAW.” Another GM official told SIGTARP, “All you need is one missing part
                      and it stops production. They had significant leverage… We needed the
                      cooperation and enthusiasm of the UAW.”

                      In addition to the traditional strike leverage, the requirement in the TARP loan
                      agreement for a new collective bargaining agreement, and the upcoming deadline
                      for GM to file bankruptcy, gave the UAW additional leverage. The UAW
                      understood that GM had to reach an agreement with it to be able to survive, and
                      those same facts put pressure on GM. Given the need for GM to file bankruptcy
                      by June 1, 2009, GM only had a few weeks to come to an agreement with the
                      UAW, and if they did not come to agreement, GM risked the UAW prolonging
                      the bankruptcy beyond 40 days, which could lead to GM liquidating. An Auto

23
     Under the proposal, New GM would issue to Old GM 10% of the common equity of New GM and warrants to
     purchase an additional 15% of the equity of New GM.


SIGTARP 13-003                                                                                      August 15, 2013
TREASURY’S ROLE IN THE DECISION FOR GM TO PROVIDE PENSION PAYMENTS TO DELPHI EMPLOYEES                                  23




                        Team official told SIGTARP that UAW was a very major constituency that could
                        slow down and potentially block the entire sale. The time constraint of Treasury’s
                        financing was well known to the UAW and helped give it a bargaining advantage.
                        An Auto Team official told SIGTARP the Auto Team had “a strong preference”
                        that GM have “a deal in place with the UAW” prior to its bankruptcy filing,
                        adding, “And we made that known to both sides.”

                        The Negotiations

                        At the May 18-19, 2009 negotiations at Treasury’s offices and at the offices of
                        Treasury’s lawyers in Washington, D.C., GM’s CEO Henderson and UAW’s
                        President Ron Gettelfinger sat at opposite sides of a table, with Treasury’s Auto
                        Team at the end of the table. The UAW came to the negotiations with a “hit list”
                        of priority items that included New GM assuming the pension benefit guarantee
                        (top-up) for the former GM employees at Delphi represented by UAW. The same
                        UAW official who had been involved in the 1999 negotiation for the top-up (and
                        an extension of that agreement when it was scheduled to expire in 2007) was
                        negotiating with GM in 2009.24 That UAW official told SIGTARP that the top-up
                        agreement had been strongly bargained for in 1999. Auto Team leader Rattner
                        told SIGTARP the item on the term sheet showed that it was something that was
                        important to the UAW. Mr. Rattner told SIGTARP that “the top-up was an
                        integral item on the list of needs for the UAW.” Another Auto Team official told
                        SIGTARP that the UAW made it clear that it cared about the “Delphi matter” and
                        so the UAW put out these “key terms” that it “expected to be part of the overall
                        deal.”

                        GM’s then-CFO Young told SIGTARP that the UAW negotiations were only
                        focused on those aspects of the GM-UAW relationship that were discussed in the
                        TARP loan agreement. These were new labor costs and changing the UAW’s
                        health care trust (the VEBA) funding to be at least 50% in GM stock. An Auto
                        Team official told SIGTARP that the 2008 TARP loan agreement gave Treasury
                        leverage to get the UAW to the bargaining table, with Treasury’s leverage as the
                        only source of capital. Another Auto Team official told SIGTARP, “Since this
                        was a financial matter that would eventually affect the interest of taxpayers, we
                        had quite strong views.” This same Auto Team official explained to SIGTARP
                        that the consideration provided to the VEBA would impact the value of

24
     GM was significantly dependent on the automotive parts produced by Delphi and agreed in 2007 to assume Delphi’s
     hourly pension plan in two tranches to help Delphi resolve its pension liability problem and facilitate its exit from
     bankruptcy. The initial agreement between GM and Delphi was entered into in 2007, but was “amended and restated”
     in September 2008. In September 2008, GM assumed the first tranche of Delphi’s hourly plan participants amounting
     to $2.1 billion in pension liabilities. Those Delphi hourly employees whose pensions were transferred were no longer
     part of Delphi’s hourly pension plan. GM was due to assume the second tranche, estimated at between $3.2 billion
     and $3.5 billion if Delphi substantially consummated its planned bankruptcy reorganization. However, because the
     reorganization was not consummated, the transfer did not occur. Afterward, Delphi froze and ceased funding the
     hourly pension plan in November 2008. Delphi froze and ceased to fund the Delphi salaried pension plan in
     September 2008.



SIGTARP 13-003                                                                                               August 15, 2013
TREASURY’S ROLE IN THE DECISION FOR GM TO PROVIDE PENSION PAYMENTS TO DELPHI EMPLOYEES                                 24




                        Treasury’s equity, “which was really what the taxpayers were going to get back
                        for the money they put in.”

                        Late in the negotiations, CEO Henderson broached the topic of pensions, as
                        reported by Auto Team leader Rattner in Overhaul. Mr. Rattner wrote that such
                        changes would be worth billions of dollars to GM, but that when CEO Henderson
                        raised it, UAW’s President Gettelfinger said, “We aren’t going to sit in this room
                        if pensions are on your list.” Moreover, no person SIGTARP interviewed could
                        recall any discussion of the top-up agreement at the negotiations. UAW’s then-
                        General Counsel Dan Sherrick confirmed that negotiations focused only on “big
                        ticket items” and that “other prior agreements,” including the top-up agreement,
                        were not negotiated. Then-CEO Henderson told SIGTARP that the pressure to
                        finish negotiations resulted in no negotiations that he could recall related to the
                        top-up agreement.

                        Then-CEO Henderson told SIGTARP that the meetings with the UAW did not
                        initially go well, and UAW turned down a Treasury-backed proposal at 11 p.m.
                        the second day. Auto Team leader Rattner stated in Overhaul that the UAW
                        rejected the proposal at 3 a.m. At the end of two days, the UAW left the
                        negotiations at an impasse. The UAW had leverage because it knew and
                        understood from Treasury’s public statements that Treasury was committed to
                        reorganizing GM and not letting GM fail. An Auto Team official said, “I think
                        they thought their leverage was they knew we would prefer all things equal to
                        reorganize GM.” One GM official told SIGTARP that, when the Federal
                        Government came into the picture, it clearly changed the dynamics because the
                        terms of the TARP loan agreement were clearly understood by the unions and
                        GM needed the money. According to CEO Henderson, UAW President
                        Gettelfinger later called Auto Team official Bloom and “the deal got done.” CEO
                        Henderson thought that Mr. Bloom sweetened the deal with warrants (options to
                        purchase stock). Auto Team leader Rattner stated in Overhaul that Mr. Bloom
                        talked to Mr. Gettelfinger the next day (May 20, 2009), and two hours later, the
                        UAW accepted the overall deal on the collective bargaining agreement.

                        The Deal with UAW

                        Consistent with Treasury’s Auto Team’s practice, as with any liability, it would
                        have been Treasury’s decision as the buyer to assume or reject the liability to
                        top up the pensions of Delphi hourly UAW employees. The top-up was never
                        discussed in the negotiation where both GM and Treasury were present and
                        actively negotiating. Although the top-up was previously a separate written
                        agreement, the top-up was now included as one of the obligations in the overall
                        new collective bargaining agreement with the UAW, which was included under
                        the Master Sale and Purchase Agreement selling assets to New GM.25 GM could


25
     According to the UAW, it made a number of concessions in the negotiation including: elimination of performance
     bonuses and cost of living adjustments, reduced holidays, scaled-back overtime rules, and frozen wages for new entry


SIGTARP 13-003                                                                                               August 15, 2013
TREASURY’S ROLE IN THE DECISION FOR GM TO PROVIDE PENSION PAYMENTS TO DELPHI EMPLOYEES                           25




                     not agree to the new collective bargaining agreement (that included the top-up) on
                     its own without Treasury’s approval. The decision that New GM would honor the
                     top-up was a joint decision by Treasury and GM, with Treasury deciding to
                     approve the collective bargaining agreement with the UAW that included the top-
                     up. Auto Team leader Rattner told SIGTARP that GM had the option of honoring
                     or not honoring its pension benefit guarantees in bankruptcy, but GM needed
                     UAW workers and UAW’s consent was necessary for the bankruptcy.
                     Mr. Rattner told SIGTARP, “It was not a ridiculous request. And one that we
                     could have honored and needed to honor.”

                     Then-GM CEO Fritz Henderson told SIGTARP that GM knew about the top-up,
                     but that “the focus was on getting the deal done.” He told SIGTARP that if the
                     pension benefit guarantee was not assumed by New GM, there would have been a
                     strike, and “we needed a workforce.”26 However, the pressure on GM was not
                     only the threat of a strike, but the risk that the UAW would prolong the
                     bankruptcy. CEO Henderson told SIGTARP that if the pension benefit guarantee
                     with the UAW was not assumed by New GM, it would have been “mission
                     impossible.” CEO Henderson told SIGTARP that renegotiating the pensions in
                     bankruptcy would have taken a long time and would have had a negative impact
                     on the survival of GM. CEO Henderson told SIGTARP that he sought advice
                     from bankruptcy attorney Harvey Miller regarding GM’s ability to seek
                     modifications to pensions in bankruptcy and was told that to do so would have
                     extended GM’s bankruptcy for at least six months. GM believed this was not a
                     risk that GM could afford to take because Treasury had given no indication that it
                     would extend financing beyond 40 days.

                     Treasury had the power to object to New GM taking over the top-up obligation as
                     part of the larger agreement with the UAW, but like GM, had no desire to blow up
                     the larger deal. Although Mr. Rattner told SIGTARP, “Left to our own devices,
                     we would have not done the top-up,” he said that getting more on pensions “was a
                     game of chicken we didn’t want to play. We were under incredible time
                     pressure.” Although the Auto Team was concerned about the threat of the strike,
                     they were also concerned with the UAW prolonging the bankruptcy.27 When
                     asked whether they could have been tougher on the UAW, an Auto Team official
                     told SIGTARP, “We had to negotiate a deal that the UAW and bondholders
                     would accept” and “You do need employees to say yes and bondholders to say
                     yes. No one thought they [GM] could survive an 18-month bankruptcy.” In an
                     interview with SIGTARP, another Auto Team official called UAW the “big dog”


   employees. GM would also be allowed to use stock to replace debt for the VEBA health care trust and other
   concessions.
26
   UAW officials told SIGTARP that the top-up was a priority and if New GM had not honored the top-up agreement,
   the UAW would have objected to the bankruptcy sale and “they would have had a workforce stoppage.” A UAW
   official indicated to SIGTARP that the threat of a strike was real.
27
   An Auto Team official told SIGTARP that Treasury assumed it would have ownership in the company and “we had to
   ask ourselves what is the value of an ownership stake in GM that is not making automobiles…If they don’t come to
   work in the morning, it’s tricky to make cars.”


SIGTARP 13-003                                                                                         August 15, 2013
TREASURY’S ROLE IN THE DECISION FOR GM TO PROVIDE PENSION PAYMENTS TO DELPHI EMPLOYEES              26




                  because the union represented most of GM’s workforce and a failure to establish
                  an agreement with UAW could have resulted in GM’s liquidation, which the Auto
                  Team did not want. The Auto Team official told SIGTARP, “I don’t know what
                  would have happened” and that not having an agreement with UAW would have
                  been like “shooting yourself in the head,” adding that it could have resulted in the
                  liquidation of GM.




SIGTARP 13-003                                                                             August 15, 2013
TREASURY’S ROLE IN THE DECISION FOR GM TO PROVIDE PENSION PAYMENTS TO DELPHI EMPLOYEES                              27




                      GM Completes Bankruptcy in 40 Days Without
                      Agreeing To Top Up Any Other Delphi Employee
                      During bankruptcy, the existing General Motors Corporation, Old GM, sold
                      substantially all of its assets to a wholly new company, New GM, which emerged
                      from GM’s bankruptcy on July 10, 2009, with most of the company’s debt and
                      liabilities remaining with Old GM.28 An Auto Team official told SIGTARP the
                      quick-rinse bankruptcy was consistent with the Auto Team’s commercially
                      reasonable approach. However, GM CEO Henderson said to SIGTARP that,
                      according to an assessment performed prior to the bankruptcy, Treasury overpaid
                      for GM. GM’s financial advisor determined that Treasury agreed to purchase
                      New GM at more than New GM’s “Enterprise Value.” Auto Team leader Rattner
                      acknowledged in a statement made to the press in December 2011 that Treasury
                      may have overpaid. He reportedly stated, “We put more cash into GM than we
                      probably needed to – and we knew this. It’s part of why GM is so well-
                      capitalized today.”29

                      GM and Treasury had agreed that New GM would assume the liability for the top-
                      up of pensions of UAW hourly retirees at Delphi. Treasury informed PBGC of
                      the decision to top up rather than take back the full cost of the Delphi hourly
                      pensions. According to a PBGC official, an Auto Team official notified PBGC,
                      saying “We’ve done the math, and the liability associated with assumption is
                      greater than the top-up.”30 According to an internal Treasury memorandum, on
                      June 30, 2009, an Auto Team official informed PBGC that Treasury would not be
                      able to provide financing support to GM in an amount sufficient to allow the
                      continuation of Delphi’s hourly pension plan, but that it was anticipated that
                      GM’s pension benefit guarantees to the hourly employees would be preserved.
                      Treasury and GM did not agree to top up the pensions of any other Delphi retiree
                      in GM’s bankruptcy. However, after GM’s bankruptcy, New GM decided to top
                      up the pensions of certain Delphi “splinter unions” that had filed an objection to
                      Delphi’s bankruptcy.

                      Delphi Salaried Retirees

                      SIGTARP found that Delphi’s salaried retirees had no leverage, other than what
                      they hoped to be political leverage and that Treasury, as a Government agency,
28
   On June 1, 2009, GM filed a voluntary petition for reorganization under Chapter 11 of the U.S. Bankruptcy Code (11
   U.S.C. §§ 1101-1174) and conducted a court-supervised asset sale (under 11 U.S.C. § 363), in which substantially all
   of the operating assets of the company were sold to General Motors Company, or New GM, and most of the
   company’s debt and liabilities remained in the possession of Motors Liquidation Company, or Old GM, which is
   being addressed in bankruptcy court. New GM emerged from GM’s bankruptcy on July 10, 2009.
29
   The Detroit News, “Rattner: Bailout a ‘Success,’” 12/16/2011.
30
   An Auto Team official told SIGTARP that he wanted to include the Delphi hourly employees because he believed that
   it would help push the Delphi bankruptcy through more quickly. He told SIGTARP that when he attempted to get
   consensus from GM, GM pushed back and did not want to absorb this liability.


SIGTARP 13-003                                                                                            August 15, 2013
TREASURY’S ROLE IN THE DECISION FOR GM TO PROVIDE PENSION PAYMENTS TO DELPHI EMPLOYEES              28




                  would provide them with a top-up. Delphi salaried retirees had no active
                  employees at GM, a critical difference between them and the UAW. They were
                  not creditors in GM’s bankruptcy because they did not have a preexisting
                  agreement with GM to provide the pension benefit guarantee as did the UAW and
                  other unions. In 1999, the salaried workers were not organized and did not
                  negotiate a top-up agreement because their pensions had been fully funded by
                  GM. Aware that they did not negotiate a top-up agreement with GM,
                  representatives of Delphi’s salaried employees told SIGTARP that there should
                  have been consistent treatment and that they would have no problem if nobody
                  got a top-up.

                  GM had taken the position in February and March 2009 that it had no preexisting
                  obligation to the salaried employees and that the TARP loan agreement prohibited
                  it from increasing its pension benefits without Treasury’s consent, and therefore
                  GM alone could not authorize benefits for the salaried retirees. GM’s then-CEO
                  Henderson told SIGTARP that Treasury’s consent would have been necessary.
                  When asked whether Treasury’s consent was necessary to top up the salaried
                  workers, a GM executive told SIGTARP that ultimately Treasury had to agree.
                  The cost was also over the $100 million threshold requiring Treasury’s consent.

                  A Delphi salaried retiree told SIGTARP, “Unlike the UAW, the only leverage we
                  had was political. The UAW had leverage because they were building parts.”
                  Therefore, Delphi salaried retirees have pushed for action to protect their pensions
                  by appealing to the President, members of Congress, and Treasury officials for
                  assistance. On June 6, 2009, after a Congressman sent a letter to the President
                  and the Auto Team appealing on behalf of the Delphi salaried retirees, GM briefly
                  considered what, if anything, could be done to top up the pensions of Delphi’s
                  salaried retirees. On June 6, 2009, Delphi salaried retirees forwarded to then-GM
                  CEO Fritz Henderson an email with the subject, “Congressman Lee Makes Direct
                  Appeal to President Obama Demanding Fairness for Delphi Salaried Retirees.”
                  Immediately, CEO Henderson got in touch with Mr. Rattner, forwarding him the
                  email. Mr. Rattner promptly emailed other members of the Auto Team and
                  Advisor to the President Brian Deese, saying that he had had a long conversation
                  with CEO Henderson on this and other matters. He wrote, “With respect to the
                  Delphi retirees, [then-GM Treasurer] Walter Borst is apparently preparing some
                  kind of proposal for how to do something for them that is defensible. Fritz seems
                  relaxed/ambivalent. We should be hearing more about this over the next
                  24 hours.”

                  Auto Team leader Rattner told SIGTARP that GM came to the Auto Team
                  because “GM wanted to do something for the [Delphi] salaried retirees.”
                  Mr. Rattner discussed it with then-GM CEO Henderson. Although Mr. Rattner
                  could not remember the specifics of the conversation, he told SIGTARP that he
                  thought there was nothing defensible from a commercial standpoint that could be
                  done for the Delphi salaried retirees. Mr. Rattner told SIGTARP, “We didn’t




SIGTARP 13-003                                                                             August 15, 2013
TREASURY’S ROLE IN THE DECISION FOR GM TO PROVIDE PENSION PAYMENTS TO DELPHI EMPLOYEES                 29




                  think there was anything defensible. We felt bad, but we didn’t think it was
                  justifiable.”

                  GM’s then-CEO Henderson told SIGTARP that he asked then-GM Treasurer
                  Borst if there was anything that could be done for the Delphi salaried retirees.
                  CEO Henderson told SIGTARP that Treasurer Borst told him that nothing could
                  be done and the salaried plan was well funded when Delphi was spun off.
                  Treasurer Borst told SIGTARP he informed CEO Henderson that GM was unable
                  to take action. Treasurer Borst told SIGTARP, “We didn’t have a benefit
                  guarantee agreement [with the salaried retirees] like the one the hourlies had.”
                  According to CEO Henderson, the salaried plan had been fully funded at the time
                  of the spinoff and that there was no preexisting agreement to provide the salaried
                  retirees with a pension benefit guarantee. CEO Henderson told SIGTARP that
                  Mr. Borst had explained that if GM found a way to fund the top-up during GM’s
                  bankruptcy, it would be as if GM had funded the plan twice. As CEO Henderson
                  expressed to SIGTARP, “It was terrible for those who lost their benefits,” but he
                  explained that from a commercial standpoint GM had already fully funded
                  Delphi’s salaried pensions at the time of Delphi’s spinoff and there was no basis
                  to do so again. According to a Treasury document, it was estimated that Delphi
                  salaried retirees would lose approximately $440 million in pension benefits. A
                  top-up would be expected to cost an equivalent amount.

                  The presence of the Government changed the Delphi salaried retirees’
                  expectations. One former Delphi salaried employee told SIGTARP that Treasury
                  “cannot throw off the mantle of Government and make themselves into a
                  commercial enterprise.” He continued, “It is wrong of our Government to take
                  funds from everyone and give it to the few.” After the decision was made not to
                  provide a top-up for salaried employees, the President read a letter from a Delphi
                  salaried retiree and asked his advisors for information. Lawrence Summers
                  prepared a briefing memo to the President in August 2009; however, there was no
                  further action.

                  Although Delphi salaried retirees had asked Auto Team official Bloom to
                  consider preserving the pensions out of fairness, Auto Team official Bloom told
                  SIGTARP that GM “did not provide a top-up to the salaried guys because I think
                  [GM] concluded there was not a commercially reasonable reason to do it.”
                  Mr. Bloom added that GM’s automotive parts suppliers “received a hundred cents
                  on the dollar,” the UAW’s retirees received a number “less than a hundred, but
                  more than the bondholders,” and some got less than the bondholders. Mr. Bloom
                  told SIGTARP that they could not make everyone whole and “That’s not to say
                  that people didn’t lose a lot or [were] hurt or were treated in a way that – sort of in
                  a human way you would say that’s unfair. I don’t think that anybody thinks
                  bankruptcy is fair. It is what it is, though.”




SIGTARP 13-003                                                                                August 15, 2013
TREASURY’S ROLE IN THE DECISION FOR GM TO PROVIDE PENSION PAYMENTS TO DELPHI EMPLOYEES                                   30




                        Delphi Hourly Employees Represented by Smaller Unions

                        SIGTARP found that although in GM’s bankruptcy, GM did not assume the other
                        top-up agreements for Delphi IUE and USW hourly employees because those
                        unions did not have leverage, subsequently GM agreed to top up the smaller
                        unions because of the leverage those unions had to prolong Delphi’s bankruptcy
                        or strike, which GM believed would significantly impact its ability to survive.
                        Then-CEO Henderson told SIGTARP that GM did not assume the IUE/USW
                        pension benefit guarantees in GM’s bankruptcy because there were no active IUE
                        or USW employees at GM.31 According to a representative of both unions, the
                        IUE and USW knew that they had little chance of succeeding in holding up or
                        affecting GM’s bankruptcy. GM did not have any discussions with these unions
                        prior to filing for bankruptcy. Although the unions filed objections in GM’s
                        bankruptcy, the GM bankruptcy judge dismissed their objections.32

                        From approximately July 10 to July 22, 2009, GM was negotiating with the IUE
                        and USW, which had filed objections in Delphi’s bankruptcy, had active workers
                        at Delphi, and had told GM in the case of the IUE that representatives had asked
                        that union to file for strike authorization.33 Then-CEO Henderson told SIGTARP
                        that after GM’s 363 sale, there were residual issues with the IUE because the
                        Auto Team had given parameters to GM to reduce by two-thirds post-
                        employment benefits such as health care and pensions. Then-CEO Henderson
                        told SIGTARP that GM had proposed a 62% reduction in employment benefits,
                        but Mr. Rattner told them it had to be two-thirds. Given that these negotiations
                        took place after New GM emerged from GM’s bankruptcy, the Auto Team was
                        not involved in the same way they had been, leading up to and through the
                        bankruptcy.34


31
     “They are just dramatically less relevant,” Auto Team official Bloom told SIGTARP. “They didn’t have nearly the
     same footprint and the drama that UAW had, the overwhelming majority of General Motors employees.” Bloom told
     SIGTARP that as to those two unions, given his prior employment with USW, he made a conscious decision not to
     involve himself.
32
     The court ruled that New GM needed “a properly motivated work force” to succeed, which required that it “enter into
     satisfactory agreements with the UAW.” In commenting on the other unions, the bankruptcy judge ruled, “And the
     Purchaser is not similarly motivated, in triaging its expenditures, to assume obligations for retirees of unions whose
     members, with little in the way of exception, no longer work for GM.”
33
     An IUE official told SIGTARP that the union was prepared for a protracted conflict if GM had decided not to uphold
     IUE’s top-up agreement: “Without a doubt, it would have been fought on the factory floors and in the district courts.”
34
     Following the bankruptcy sale from Old GM to New GM on July 10, 2009, the Auto Team told SIGTARP that they
     began to shift from active daily contact with GM to a less hands-on approach. Members of the Auto Team indicated
     that Lawrence Summers was the principal advocate for a quick withdrawal of Government involvement in GM, an
     approach that was also strongly supported by Secretary Geithner. Nevertheless, Auto Team members acknowledged
     to SIGTARP that there were outstanding issues relating to GM that remained after the bankruptcy and for which the
     Auto Team still had some level of involvement. As Mr. Rattner said to SIGTARP regarding continued involvement,
     “We agreed with Larry Summers that there were some loose ends that we had not finished.” Another Auto Team
     official described it as “clean up” telling SIGTARP, “While they were out, there was still stuff that needed to get
     finalized and implemented, etc…And then largely, although there was a bit of a transition period, largely we then
     moved into a monitoring role.” Steven Rattner was one of the first to depart in late July 2009.


SIGTARP 13-003                                                                                                August 15, 2013
TREASURY’S ROLE IN THE DECISION FOR GM TO PROVIDE PENSION PAYMENTS TO DELPHI EMPLOYEES                                   31




                        In July 2009, internal Government emails between the Auto Team and Advisor to
                        the President Brian Deese discussed GM’s need to address issues with Delphi’s
                        “splinter unions.” Auto Team officials did not recall details related to the
                        emails.35 When Senator Charles Schumer took a position that GM should assume
                        the Delphi salaried retiree pensions, Mr. Deese emailed Mr. Rattner this “may
                        complicate the optics of doing anything for the splinters.” Other emails from
                        Mr. Deese stated, “We will continue to face intense scrutiny on this issue. The
                        politics of terminations is quite intense” and “we need to work on a clear rationale
                        for the outcomes we’re moving toward, as well as an explanation of respective
                        roles.” Mr. Rattner emailed members of the Auto Team that he had spoken with
                        Fritz Henderson about “our logic on the splinters, which he [Henderson] was fine
                        with. [Auto Team Analyst] Sadiq [Malik] should speak to Janice [Uhlig]36 about
                        the details, particularly how the reallocation of the $417mm would work.” 37
                        Auto Team member Feldman emailed members of the Auto Team about health
                        care/pension benefit changes for IUE and USW employees, and Mr. Deese
                        responded that the company’s organizing principle was parity between GM
                        salaried and non-UAW hourlies. Mr. Deese referenced a discussion about health
                        care costs and the “credible fairness arguments to augment the hourlies’ recovery
                        based on the pension disparity, but that for all the reasons we discussed that
                        would not be possible. However, I think the logic of that conclusion strongly
                        counsels in favor of bringing the top-up through. Otherwise, we’re moving in the
                        opposite direction from a position that we all agreed was itself on the edge of
                        fairness.”

                        In the emails from middle to late July 2009, Mr. Feldman told the Auto Team and
                        Mr. Deese, “GM had separately concluded that as part of reaching a resolution
                        with the splinters they needed to be prepared to honor the top-up.” Mr. Deese
                        later emailed the Auto Team that he told an IUE official that “this is GM’s
                        negotiation,” that they should only engage in discussions if there is a “risk that
                        GM would go substantially beyond what we had discussed with them,” to which
                        Mr. Feldman replied, “I continue to think we should stay out. We have given GM
                        our input but this is up to GM.” CEO Henderson told SIGTARP that the input
                        Treasury gave was the two-thirds reduction.



35
     Mr. Deese may have been emailing about this matter because Mr. Bloom sent the splinter unions to Mr. Deese
     because of Mr. Bloom’s prior employment with the USW. Also, the splinter unions met with the President on
     July 13, 2009, but pensions were not discussed. SIGTARP was unable to interview Mr. Deese about these emails and
     these events because the Administration declined to make him available for an interview because until just recently he
     was an advisor to the President. The Administration cited what it referred to as a long-standing practice. The
     Administration also did not grant SIGTARP’s request for an interview with Dr. Summers, although White House
     Counsel advised SIGTARP that they contacted Dr. Summers and that he indicated to them that he had no specific
     recollection of, or involvement in, the issue of the Delphi pensions. Dr. Summers is not a current employee of the
     Administration.
36
     Janice Uhlig was a GM health care finance executive involved in the benefit analysis for GM.
37
     The $417 million figure related to health care costs related to the two-thirds reduction in certain costs for GM that
     Mr. Rattner had set for GM as a guideline during the GM bankruptcy.


SIGTARP 13-003                                                                                                August 15, 2013
TREASURY’S ROLE IN THE DECISION FOR GM TO PROVIDE PENSION PAYMENTS TO DELPHI EMPLOYEES                                  32




                        Although the meaning of these Government emails is unclear, GM officials told
                        SIGTARP that they did not know the views of Treasury or the White House. GM
                        Associate General Counsel Frank Jaworski told SIGTARP that Mr. Feldman
                        asked for updates on the progress of negotiations but did not express any views of
                        the White House or Treasury. He told SIGTARP that there were no constraints or
                        limitations placed by Treasury during the talks with the unions. Then-CEO
                        Henderson told SIGTARP that he did not remember talking to anyone in the
                        Administration about the top-up or that anyone put limitations or constraints on
                        the negotiations. He told SIGTARP that he did not recall any suggestion that GM
                        provide the top-up, or anyone at Treasury or the Administration (such as Mr.
                        Deese) wanting GM to provide the top-up. CEO Henderson told SIGTARP that
                        there was no pressure to provide the top-up from the Administration or Treasury.

                        On September 10, 2009, as part of a larger settlement agreement that also
                        addressed retiree health care, New GM agreed to honor IUE’s and USW’s Delphi
                        top-up agreements at an estimated cost of $350 million. CEO Henderson told
                        SIGTARP that providing the top-up was necessary “to get the deal done,” saying
                        there was a clear inference that IUE could strike at Delphi, which would have shut
                        down GM.38 GM’s then-CFO Young told SIGTARP, “If Delphi shut down, we
                        shut down.”39 Then-CEO Henderson and another GM executive told SIGTARP
                        that although Treasury knew about these top-ups and did not oppose them, GM
                        did not seek Treasury’s consent because the TARP loan agreement prohibiting
                        GM from taking on new pension liabilities was between Treasury and Old GM,
                        not New GM.




38
     One GM official told SIGTARP that the unions got the agreement because liquidation of Delphi would have been a
     disaster for GM.
39
     GM’s former CFO Young told SIGTARP that if the Delphi bankruptcy had gone on longer, it would have been
     difficult for GM and GM would have had to develop an alternative means to obtain parts. Delphi exited bankruptcy
     in October 2009.


SIGTARP 13-003                                                                                             August 15, 2013
TREASURY’S ROLE IN THE DECISION FOR GM TO PROVIDE PENSION PAYMENTS TO DELPHI EMPLOYEES                           33




                       Conclusion
                       The U.S. Department of the Treasury’s (“Treasury”) injection of Troubled Asset
                       Relief Program (“TARP”) funds in General Motors Corporation (“GM”) and
                       Chrysler Group LLC (“Chrysler”) was the only bailout with a President’s
                       Designee overseeing the companies’ restructurings. With the first TARP
                       injection of $13.4 billion in December 2008, Treasury assigned responsibility
                       over GM’s restructuring to the President’s Designee. In February 2009, the
                       President designated the Presidential Task Force on the Auto Industry (“Auto
                       Task Force”), which delegated the responsibility for GM’s restructuring to four
                       primary officials who were part of an Auto Team (“Auto Team”), three of whom
                       worked at Treasury from February 2009 to the summer of 2009,40 led by Steven
                       Rattner, who was called the “car czar.”41 The existence of the Auto Team and the
                       role these Treasury officials played sharply contrasted with the role played by
                       Treasury officials under other TARP programs. These four Auto Team officials
                       played a direct role in GM’s decisions and operations up to and through one of the
                       largest and fastest bankruptcies in our nation’s history. A new company referred
                       to as New GM emerged from GM’s bankruptcy in July 2009, with Treasury
                       owning 61% of its common stock on behalf of taxpayers. New GM purchased
                       substantially all of GM’s assets while leaving behind many of its liabilities.

                       One of the liabilities that New GM agreed to honor related to the pensions of
                       certain former GM employees who had worked in its automobile parts division
                       Delphi Corporation (“Delphi”), when GM spun off Delphi into an independent
                       company in 1999. The agreement ran to Delphi employees who were paid an
                       hourly wage (an “hourly employee”) and were represented by certain unions.
                       Delphi employees who were paid a salary (a “salaried employee”) did not have an
                       agreement for GM to pay anything toward their pensions after the 1999 spinoff.
                       Delphi, which was GM’s largest supplier of parts, had been in bankruptcy since
                       2005 and did not have enough money to fund its pensions. When interviewed by
                       SIGTARP, the four Treasury Auto Team officials made it clear that the decisions
                       made and Treasury’s role related to Delphi pensions had to be viewed in the
                       broader context of GM’s restructuring.

                       As GM’s only lender and later GM’s largest investor, Treasury, through its Auto
                       Team, had significant leverage and influence on GM’s decisions leading up to and
                       through the bankruptcy. Before and after GM submitted its restructuring plan to
                       Treasury, the Auto Team had been assessing bankruptcy, and in February was
                       planning (but not discussing with GM) a GM bankruptcy that would sell assets to
                       a buyer, leaving behind many of its liabilities. The Auto Team believed this type
                       of bankruptcy (called a “363 sale” for a section of the bankruptcy code) would be
                       quicker than a normal 9 to 12 months bankruptcy. They were also planning this

40
     The fourth primary official continued to work on the Auto Team until the fall of 2011.
41
     The Auto Task Force was co-chaired by former Treasury Secretary Timothy Geithner and former National Economic
     Council Director Lawrence Summers.


SIGTARP 13-003                                                                                         August 15, 2013
TREASURY’S ROLE IN THE DECISION FOR GM TO PROVIDE PENSION PAYMENTS TO DELPHI EMPLOYEES                            34




                       type of bankruptcy for Chrysler. The Auto Team first exerted their significant
                       influence on GM by replacing GM’s CEO Rick Wagoner (who adamantly
                       opposed bankruptcy) with Treasury’s choice, Fritz Henderson, a move that GM’s
                       Board of Directors viewed as Treasury usurping their power. Mr. Henderson told
                       SIGTARP that the Auto Team’s decision to replace Mr. Wagoner with their
                       selection sent a message to GM executives and was an early indicator that
                       Treasury, as the main investor in GM, would have significant influence over
                       GM’s decisions and operations.

                       Importantly, three days later, on March 30, 2009, Treasury rejected GM’s
                       restructuring plan that did not plan for bankruptcy, required a new plan signaling
                       that GM may need bankruptcy, and injected $6 billion in TARP funds in GM –
                       enough financial support to last 60 days. With only 60 days of funding, GM
                       developed a new restructuring plan with significant influence and leverage from
                       Treasury’s Auto Team. The December 2008 TARP loan agreement gave
                       Treasury the explicit right to approve transactions over $100 million and new
                       pension obligations, but the Auto Team’s influence went far beyond that legal
                       right. One GM official told SIGTARP, “Ultimately it was that GM is not in
                       control. And GM is totally dependent.”

                       Although the Auto Team’s role was supposed to be advisory for matters not
                       requiring Treasury’s consent under the TARP Loan Agreement, in practice it was
                       more than advisory. SIGTARP found that the Auto Team used their leverage as
                       GM’s largest lender to influence and set the parameters for GM to make decisions
                       in areas that did not require Treasury consent. One Auto Team official described
                       Treasury as GM’s “only lifeline.” The Auto Team exerted the influence that
                       came with that position. According to numerous interviews of Auto Team and
                       GM officials, the Auto Team “was persistently pressing” and “pushed” GM to
                       take more significant actions than GM would have done on its own, actions in line
                       with Treasury’s preferences. As SIGTARP previously reported in its prior audit,
                       in response to the Auto Team’s rejection of GM’s restructuring plan and its
                       explicit comment that GM’s “pace” of dealership closings was too slow and an
                       obstacle to its viability, GM substantially accelerated its dealership termination
                       timelines.42 Although the Auto Team did not tell GM which dealerships to close,
                       GM made the decision to accelerate the dealership closings with significant
                       Treasury influence.

                       An Auto Team official told SIGTARP that “There was a feeling that the Auto
                       Team had to carefully manage GM, which would have given away Treasury’s
                       money without blinking.” Another Auto Team official explained to SIGTARP
                       that Treasury did not want to start running the company, but when dealing with
                       taxpayer resources, “We, the Government, were ultimately holding that purse
                       string,” and Treasury reserved the right to tell GM that they would not back them.
                       A third Auto Team official told SIGTARP that they did not cram down decisions
42
     SIGTARP-10-008, “Factors Affecting the Decisions of General Motors and Chrysler to Reduce Their Dealership
     Networks,” 7/19/2010.


SIGTARP 13-003                                                                                          August 15, 2013
TREASURY’S ROLE IN THE DECISION FOR GM TO PROVIDE PENSION PAYMENTS TO DELPHI EMPLOYEES                35




                  on GM, “but we were investing a lot of money, and we had the opportunity to
                  disagree.” There was no need for ultimatums. As one Auto Team official told
                  SIGTARP, “GM realized that there was no other available source of money.”
                  When an Auto Team official was asked by SIGTARP how the Auto Team
                  conveyed their preference or nudged GM to see things the way the Auto Team
                  saw them, given that ultimately GM could do its own thing, the Auto Team
                  official said, “Well, they could, but then they couldn’t exist. I mean, as I said, as
                  the lender we had a fair amount of leverage.”

                  Driven by broader concerns about the auto industry, Treasury’s Auto Team
                  directed GM’s restructuring efforts toward filing for bankruptcy. The Auto Team
                  took steps to signal to GM their strong preference for bankruptcy and bring
                  significant influence over GM’s decision to file bankruptcy. The Auto Team’s
                  replacement of GM CEO Wagoner, who did not favor bankruptcy, and the choice
                  of Mr. Henderson as CEO, signaled the Auto Team’s preference for bankruptcy
                  and directed GM’s restructuring efforts toward bankruptcy. GM CEO Henderson
                  was open to bankruptcy but only as “Plan B.” He hoped to avoid bankruptcy by
                  getting bondholders to exchange their debt for GM stock. Despite the exchange
                  being a condition under the TARP loan agreement, Treasury’s Auto Team did not
                  believe that the bond exchange alone would make GM viable and asserted their
                  leverage as the primary financial support of GM. In the first week of April 2009,
                  the Auto Team “highly suggested” to GM that they felt “pretty strongly” that a
                  Section 363 bankruptcy was the “best approach.” The Auto Team opposed GM’s
                  decision to proceed with the bond exchange and communicated to GM their
                  preference that 90% of the bondholders participate in the exchange, a “level of
                  acceptance” that was “very high,” making bankruptcy more likely, according to
                  then-CEO Henderson. CEO Henderson told SIGTARP that it was not clear that
                  bankruptcy was the only option until the bond exchange failed. With a $1 billion
                  bond payment coming due June 1, 2009, which Treasury would not fund, GM
                  asked Treasury to fund GM’s bankruptcy. Having already invested $19.4 billion
                  in TARP funds and out of concern that a GM failure could have a cascading effect
                  throughout the automobile industry by causing related companies to fail, Treasury
                  agreed to fund GM’s bankruptcy with a $30.1 billion TARP loan. Not wanting
                  the TARP debt on GM’s balance sheet, Treasury decided that its combined
                  $49.5 billion in TARP loans would convert to 61% ownership of common stock
                  in New GM, the purchaser in bankruptcy.

                  Treasury’s Auto Team created a condition on funding GM’s bankruptcy that
                  would serve as pressure on GM and would drive pre-bankruptcy negotiations and
                  decisions. Treasury conditioned giving GM $30.1 billion in TARP funds on a
                  “quick-rinse bankruptcy” that would end in 40 days because Auto Team officials
                  thought that was the best way to save the automobile industry, concerned that GM
                  could not survive a lengthy bankruptcy and GM’s failure would have broader
                  systemic consequences. Treasury Auto Team officials deemed speed as essential
                  and were concerned that if GM’s bankruptcy was prolonged, consumers would
                  stop purchasing GM’s automobiles, and GM would likely fail. Neither Treasury



SIGTARP 13-003                                                                               August 15, 2013
TREASURY’S ROLE IN THE DECISION FOR GM TO PROVIDE PENSION PAYMENTS TO DELPHI EMPLOYEES            36




                  nor GM believed that the company could survive a lengthy bankruptcy; however,
                  GM thought that the 40-day timeframe was not realistic. GM’s bankruptcy
                  lawyer told the Auto Team that the timeline was “impossibly aggressive. It’s
                  never been done.” Treasury had leverage to set conditions on TARP funds, even
                  if it was a timeframe that did not seem realistic to GM and had never been done
                  before. If GM’s bankruptcy was not completed in time, GM risked losing its only
                  source of financing and its purchaser in bankruptcy.

                  Treasury’s influence over GM deepened after Treasury decided to fund GM’s
                  bankruptcy and become the majority owner of New GM. With their leverage as
                  the purchaser of GM’s assets in bankruptcy, Treasury’s Auto Team had
                  significant influence on GM to make specific decisions that were in keeping with
                  Treasury’s preferences. GM’s then-CFO Young told SIGTARP, “We put forward
                  recommendations, but at the end of the day, the purchaser [Treasury] makes the
                  final decision.” One Auto Team official told SIGTARP that “We approve
                  technically everything because we don’t have to do the DIP [debtor-in-possession
                  bankruptcy loan]. But no, not in the micro. I mean it wasn’t, you know you bring
                  us this, we approve this, we approve that. It was bring us a plan and we do a DIP
                  or we don’t do a DIP.” One Auto Team official testified in a deposition that the
                  leverage Treasury had with Old GM was that Treasury was the only buyer for
                  GM’s assets. That same Auto Team official called Treasury’s leverage
                  “considerable” because the alternative was “catastrophic,” adding that he meant
                  liquidation. One reason why the Auto Team had chosen a 363 bankruptcy sale
                  was the ability to “cherry-pick” assets and liabilities that New GM would take on.
                  An Auto Team official stated in a deposition, “it is my understanding that as the
                  buyer, we get to determine which assets are, you know, assets we would buy and
                  which liabilities” we would take on.

                  A quick-rinse bankruptcy requires consensus with major stakeholders, and
                  Treasury used its significant financial leverage to get GM to reach agreement with
                  the two stakeholders that Treasury believed could hold up GM’s bankruptcy – the
                  bondholders and the International Union, United Automobile, Aerospace, and
                  Agricultural Implement Workers of America (“UAW”). The 2008 TARP loan
                  agreement required new agreements with both of these groups. Treasury made a
                  deal with the bondholders in the weeks prior to GM filing bankruptcy because of
                  the bondholders’ leverage to object to and prolong the bankruptcy. The Auto
                  Team was actively involved in the negotiations out of concern that the
                  bondholders were a major risk of delaying the bankruptcy if they objected.
                  Treasury was in a position to provide bondholders with a better recovery than
                  under the bond exchange. This was because Treasury would own most of the
                  equity of New GM, and, according to Henderson, equity was something only
                  Treasury could provide. In exchange for the bondholders agreeing not to oppose
                  the bankruptcy, Treasury gave additional consideration to Old GM during the
                  bankruptcy proceeding, to the benefit of GM’s bondholders.




SIGTARP 13-003                                                                           August 15, 2013
TREASURY’S ROLE IN THE DECISION FOR GM TO PROVIDE PENSION PAYMENTS TO DELPHI EMPLOYEES                   37




                        Treasury’s requirement in the December 2008 TARP loan agreement that GM
                        reach a new deal with the UAW, Treasury’s conditioning TARP funds on a 40-
                        day quick-rinse bankruptcy, and UAW’s leverage to stall the bankruptcy or strike
                        pressured GM on “getting the deal done” with the UAW and resulted in New GM
                        taking on the liability to top up the pensions of UAW’s members who had worked
                        at Delphi at the time of its 1999 spinoff from GM, increasing their pension benefit
                        payments to their full benefit level.43 Members of the Auto Team were actively
                        involved in the negotiations with UAW that took place on May 18-19, 2009, at
                        Treasury’s offices and at the offices of Treasury’s lawyers in Washington, D.C.
                        One Auto Team official testified in a deposition that Treasury represented the
                        owners of New GM in the negotiations. GM and Auto Team officials were
                        concerned that the UAW, referred to as “the big dog” by an Auto Team official,
                        represented 99% of GM’s unionized employees and could stop production with a
                        strike. In addition to the traditional strike leverage, the requirement in the TARP
                        loan agreement for a new collective bargaining agreement and the Auto Team’s
                        40-day timeframe for bankruptcy gave the UAW additional leverage. An Auto
                        Team official told SIGTARP that the UAW was a very major constituency that
                        could slow down and potentially block the entire sale. The Auto Team made it
                        very clear to GM and the UAW that it was essential that they reach an agreement
                        with UAW prior to GM’s bankruptcy filing. The UAW understood that GM
                        could not walk away from negotiations and had to reach an agreement with it to
                        be able to survive, and those same facts put pressure on GM. Given the need for
                        GM to file bankruptcy by June 1, 2009 when a $1 billion bond payment came
                        due, GM only had a couple of weeks to come to an agreement with the UAW, and
                        if they did not come to agreement, GM risked the UAW objecting to and
                        prolonging the bankruptcy beyond 40 days, which GM believed would lead to
                        liquidation.

                        The UAW came to the negotiations with a “hit list” of priority items that included
                        New GM assuming the pension benefit guarantee (“top-up”) for the former GM
                        employees at Delphi represented by UAW. Since February 2009, the Auto Team
                        had been analyzing options concerning the top-ups of Delphi employees and had
                        been negotiating with the Pension Benefit Guaranty Corporation (“PBGC”), the
                        Government entity that insures pensions. The May 2009 UAW negotiations only
                        focused on those aspects that were discussed in the TARP loan agreement, which
                        included GM funding retiree health care costs using New GM stock, with
                        Treasury as the majority owner of New GM. According to Mr. Rattner’s book,
                        Overhaul: An Insider’s Account of the Obama Administration’s Emergency
                        Rescue of the Auto Industry (“Overhaul”), when GM’s CEO raised pensions, the
                        UAW’s president reportedly said, “We aren’t going to sit in this room if pensions
                        are on your list.” At the end of two days, the UAW left the negotiations at an
                        impasse. The UAW president called Auto Team official Ron Bloom the next day,
                        and they made the overall deal for a new collective bargaining agreement. The



43
     Delphi was GM’s largest supplier of auto parts and had been in bankruptcy since 2005.


SIGTARP 13-003                                                                                  August 15, 2013
TREASURY’S ROLE IN THE DECISION FOR GM TO PROVIDE PENSION PAYMENTS TO DELPHI EMPLOYEES                                 38




                        top-up was never discussed in the negotiations where both GM and Treasury were
                        present and actively negotiating.

                        The Auto Team’s role in the decision to top up the pensions of Delphi’s UAW
                        workers was not advisory. Consistent with the Auto Team’s practice, as with any
                        liability, it would have been Treasury’s decision as the buyer to assume or reject
                        the liability to top up the pensions of Delphi hourly UAW employees. The Auto
                        Team made it clear to GM that they wanted an agreement with the UAW prior to
                        bankruptcy and the Auto Team actively negotiated and made the overall deal.
                        Although the top-up was previously a separate written agreement, the top-up was
                        now included as one of the obligations in the overall new collective bargaining
                        agreement with the UAW, which was included in the Master Sale and Purchase
                        Agreement selling assets to New GM.44 GM could not decide on its own to agree
                        to the new collective bargaining agreement that included the top-up because
                        Treasury’s consent was required under the TARP loan agreement and Treasury
                        was the purchaser in bankruptcy. The decision that New GM would honor the
                        top-up was a joint decision by Treasury and GM with Treasury deciding to
                        approve the collective bargaining agreement with the UAW that included the top-
                        up.

                        Even though the top-up was never discussed in the negotiations with the UAW, it
                        became a foregone conclusion that it would be included in the new UAW
                        collective bargaining agreement. Auto Team leader Rattner told SIGTARP that
                        GM had the option of honoring or not honoring its pension benefit guarantees in
                        bankruptcy, but GM needed UAW workers and UAW’s consent was necessary
                        for the bankruptcy. Auto Team leader Rattner and another Auto Team official
                        told SIGTARP that, because the UAW included the top-up on their list, it was
                        clear that the UAW expected the top-up to be part of the overall deal. Treasury
                        had the power to object to New GM taking on the top-up obligation as part of the
                        larger agreement with the UAW, but had no desire to blow up the larger deal.
                        Although the Auto Team was concerned about the threat of the strike, they were
                        also concerned with the UAW prolonging the bankruptcy. An Auto Team official
                        told SIGTARP that not having an agreement with UAW would have been like
                        “shooting yourself in the head,” adding that it could have resulted in the
                        liquidation of GM. Auto Team leader Rattner told SIGTARP that getting more on
                        pensions “was a game of chicken we didn’t want to play. We were under
                        incredible time pressure.” Auto Team leader Rattner told SIGTARP, “It was not
                        a ridiculous request. And one that we could have honored and needed to honor.”

                        Then-GM CEO Henderson told SIGTARP that the pressure to finish the
                        negotiations resulted in no negotiation on the top-up, and although GM knew
                        about the top-up, “the focus was on getting the deal done.” CEO Henderson told
                        SIGTARP that renegotiating the pensions in bankruptcy would have taken a long

44
     According to the UAW, it made a number of concessions in the negotiation including: elimination of performance
     bonuses and cost of living adjustments, reduced holidays, scaled-back overtime rules, and frozen wages for new entry
     employees. GM would be allowed to use stock to replace debt for the VEBA health care trust, and other concessions.


SIGTARP 13-003                                                                                               August 15, 2013
TREASURY’S ROLE IN THE DECISION FOR GM TO PROVIDE PENSION PAYMENTS TO DELPHI EMPLOYEES                            39




                       time – a risk that GM did not believe it could afford to take because Treasury had
                       given no indication that it would extend financing beyond 40 days. CEO
                       Henderson told SIGTARP that if the pension benefit guarantee with the UAW
                       was not assumed by GM, it would have been “mission impossible.”

                       Treasury’s Auto Team and GM did not agree to top up the pensions of other
                       former GM employees at Delphi, which did not have active employees at GM,
                       and therefore had no leverage to hold up GM’s bankruptcy. This included Delphi
                       employees who were paid a salary and employees who were paid an hourly wage
                       who were members of the IUE and USW unions. These two groups of employees
                       had pension plans that had become underfunded. Although the hourly employees
                       at these unions had a preexisting top-up agreement, there were no discussions
                       regarding the top-up agreement with GM and these unions prior to GM’s
                       bankruptcy. Although in GM’s bankruptcy New GM did not assume the other
                       top-up agreements with Delphi IUE and USW employees because those unions
                       did not have leverage, subsequently New GM agreed to top up the smaller unions
                       because of the leverage those unions had to prolong Delphi’s bankruptcy or strike,
                       which GM believed would significantly impact its ability to survive.45

                       Delphi’s salaried retirees had no leverage, other than what they hoped would be
                       political leverage and that Treasury, as a Government agency, would provide
                       them with a top-up. The Delphi salaried employees were not represented when
                       Delphi was spun off. GM had fully funded (at 123%) the expected payments
                       needed to cover the salaried employees’ pension plan at the time of Delphi’s
                       spinoff and there was no top-up agreement in place. They did not have active
                       employees at GM and were not creditors in GM’s bankruptcy. They sought to use
                       their only tool, political pressure, to improve their position in the hopes that
                       Treasury would provide them with the same treatment as Delphi UAW
                       employees. GM officials took the position with PBGC and Delphi, and confirmed
                       in SIGTARP interviews, that GM did not believe it had the ability to provide a
                       top-up for the salaried employees on its own because the TARP loan agreement
                       prohibited GM from increasing pension benefits without Treasury’s consent. The
                       cost was also over the $100 million threshold requiring Treasury’s consent.
                       According to a Treasury document, it was estimated that Delphi salaried retirees’
                       would lose approximately $440 million in pension benefits. A top-up would be
                       expected to cost an equivalent amount.



45
     The interconnectedness of Delphi to GM provided the IUE and USW hourly employees leverage in Delphi’s
     bankruptcy where these employees filed objections to the bankruptcy and threatened to strike. New GM began
     negotiations with the IUE and USW shortly after its emergence from GM’s bankruptcy in an effort to resolve
     remaining issues. As part of a larger settlement, New GM agreed to top up the pensions of these workers at an
     estimated cost of $350 million. GM executives believed that a shutdown at Delphi could shut GM down. Given that
     these negotiations took place after New GM emerged from GM’s bankruptcy and the Auto Team was disbanding, the
     Auto Team was not involved in the same way they had been leading up to and through the bankruptcy. According to
     then-CEO Henderson, GM did not seek Treasury’s consent because the TARP loan agreement prohibiting GM from
     taking on new pension liabilities was between Treasury and Old GM, not New GM.


SIGTARP 13-003                                                                                           August 15, 2013
TREASURY’S ROLE IN THE DECISION FOR GM TO PROVIDE PENSION PAYMENTS TO DELPHI EMPLOYEES             40




                  Ultimately, GM did not fail and the broader systemic consequences of a GM
                  failure that Treasury had feared were avoided. There are two important lessons to
                  be learned from the role that Treasury’s Auto Team played.

                  First, the Auto Team’s deep involvement and significant influence on GM’s
                  decisions leading up to and through GM’s bankruptcy led to expectations that
                  Treasury would not act as a private investor, but as the Government. PBGC had
                  an expectation that decisions on what obligations GM would take on related to the
                  Delphi pensions would proceed differently than what might have normally
                  occurred, and could potentially have saved PBGC billions of dollars with
                  Treasury involved. Also contributing to this expectation was the fact that the
                  Auto Team negotiated with PBGC on behalf of GM related to what GM would
                  pay on the pensions. Delphi and its workers, who had been former GM
                  employees, also had the expectation that the Government would ensure that GM
                  treat the pensions of all former GM employees at Delphi the same out of fairness.
                  Also contributing to this expectation was the fact that TARP funds were being
                  used, and that GM had taken the position with Delphi (and PBGC) that taking on
                  additional pension obligations violated the TARP loan agreement and required
                  Treasury’s consent. A PBGC document stated that Delphi believed GM may be
                  looking to the “car czar” to mandate that GM assume Delphi pensions as part of
                  GM’s use of TARP funds. One former Delphi salaried employee told SIGTARP
                  that Treasury “cannot throw off the mantle of Government and make themselves
                  into a commercial enterprise” and “it is wrong of our Government to take funds
                  from everyone and give it to the few.” However, Auto Team officials attempted
                  to view top-ups as a private investor. An Auto Team official told SIGTARP that
                  the Government could not make everyone whole, saying, “I don’t think that
                  anybody thinks bankruptcy is fair.”

                  Treasury’s Auto Team did not always act as a private investor and at times acted
                  as the Government to prevent GM from failing, concerned about financial
                  stability in the auto industry. Although the Auto Team tried to view issues
                  through a “commercially reasonable” lens like a private investor, they often did
                  not act as a private investor, nor should they have. Without policies or procedures
                  to define commercial reasonableness, Treasury used commercial reasonableness
                  as a justification for all of its actions, even when those actions were based on
                  other concerns. For example, Treasury decided not to move GM’s headquarters
                  to save costs out of concerns over the impact on the city of Detroit. Treasury
                  made other decisions based on broader concerns about the interconnectedness of
                  the auto industry. No private investor holds the responsibility Treasury has to
                  protect taxpayers and to promote financial stability in the economy. Treasury
                  made the TARP injections in GM when, according to GM’s then CFO, no other
                  private investor would lend or invest the money that GM needed. Concerned that
                  the TARP loans would be too much debt on GM’s balance sheet, Treasury funded
                  GM’s bankruptcy and converted what would be higher priority debt to a lower
                  priority equity ownership in New GM and, according to GM, paid more than
                  GM’s “Enterprise Value.” Treasury’s Auto Team took these actions based on



SIGTARP 13-003                                                                            August 15, 2013
TREASURY’S ROLE IN THE DECISION FOR GM TO PROVIDE PENSION PAYMENTS TO DELPHI EMPLOYEES                   41




                  concerns of the consequences of a GM failure on other companies in the
                  American automotive industry, concerns not held by private investors. Even
                  though Treasury, through the Auto Team, tried to act as a private investor, they
                  had considerations that no private investor would ever have had, blurring the lines
                  between Treasury’s role as the investor and as the Government.

                  Second, the additional leverage Treasury gave to certain stakeholders, such as the
                  UAW, contributed to criticism of the disparate treatment between Delphi salaried
                  and union employees. One Auto Team official told SIGTARP that the strength of
                  the negotiating parties was dictated by the leverage they held, but SIGTARP
                  found that additional leverage was given by Treasury. The Auto Team
                  established a hierarchy of importance of stakeholders and issues that Auto Team
                  officials believed had to be completed prior to GM’s bankruptcy filing to ensure a
                  successful quick-rinse bankruptcy that would be completed in 40 days. Treasury
                  did not view the non-UAW Delphi hourly employees or the Delphi salaried
                  employees as having leverage because they did not have current employees at GM
                  and therefore could not hold up GM’s bankruptcy.

                  Two liabilities that the Auto Team had already decided to assume in bankruptcy
                  were a new agreement with the UAW and an agreement with the bondholders.
                  The UAW had leverage because it knew and understood from Treasury that it was
                  committed to reorganize GM and not let GM fail. Moreover, Treasury’s 40-day
                  bankruptcy condition gave the UAW and bondholders additional leverage to
                  threaten to hold up GM’s bankruptcy. They may have been able to obtain more
                  concessions than in a traditional bankruptcy where the issues may be litigated.
                  An Auto Team official told SIGTARP, “We had to negotiate a deal that the UAW
                  and bondholders would accept.” With Treasury’s dictate of a 40-day bankruptcy
                  and no indication that Treasury would extend that timeframe, GM officials were
                  under pressure, believing they had to reach agreements with the bondholders and
                  UAW prior to a June 1 bankruptcy filing or risk losing Treasury’s funding and
                  liquidating.

                  It is very difficult for Treasury to act as only a private investor and still fulfill its
                  greater governmental responsibilities. Treasury entered the TARP investments as
                  the Government, and must continue to act as the Government the whole time it
                  holds these investments, protecting taxpayers’ investment and fulfilling
                  Treasury’s responsibility to promote financial stability in the economy. An
                  important lesson Government officials should learn from the Government’s
                  unprecedented TARP intervention into private companies is that the actions and
                  decisions taken must represent the overarching responsibilities the Government
                  owes to the American public.




SIGTARP 13-003                                                                                  August 15, 2013
TREASURY’S ROLE IN THE DECISION FOR GM TO PROVIDE PENSION PAYMENTS TO DELPHI EMPLOYEES              42




                  Management Comments and SIGTARP’s
                  Response
                  Treasury provided an official written response in a letter dated August 9, 2013.
                  (Full text in Appendix D). In its response, Treasury noted: (1) that the decision to
                  top up pensions of certain hourly Delphi retirees, but not for salaried Delphi
                  retirees, had sound commercial reasons; (2) that Treasury does not believe that the
                  facts support the conclusions regarding the decision-making process and Treasury
                  states that the report is based on interviews of the former Treasury [Auto Team]
                  officials done without Treasury being present; and (3) Treasury was not given the
                  executive summary of the report and therefore Treasury does not think they
                  received the full draft report prior to publication.

                  The report highlights the multiple factors which affected the decision-making
                  process leading up to and through the GM bankruptcy and Treasury’s role in the
                  decision to top up certain Delphi retirees. As the report makes clear, the
                  consideration of commercial reasonableness was only one factor driving the
                  decisions. The report’s conclusions are well-supported. SIGTARP has a rigorous
                  quality control system designed to ensure that audits are performed and reports
                  are issued in accordance with professional standards and legal and regulatory
                  requirements. SIGTARP’s system of quality control was recently reviewed as
                  part of the Council of the Inspectors General on Integrity and Efficiency external
                  peer review program and assigned the highest rating. SIGTARP provided
                  Treasury with a complete draft of the report including the conclusion. The
                  executive summary is typically drafted after receiving Treasury’s response, and is
                  a summary of the conclusion provided to Treasury, with no new information.
                  Therefore, Treasury was missing no information in the report.




SIGTARP 13-003                                                                             August 15, 2013
TREASURY’S ROLE IN THE DECISION FOR GM TO PROVIDE PENSION PAYMENTS TO DELPHI EMPLOYEES              43




Appendix A – Objectives, Scope, and Methodology
SIGTARP performed this audit under the authority of Public Law 110-343, as amended, which also
incorporates the duties and responsibilities of inspectors general under the Inspector General Act of
1978, as amended. We initiated this audit as part of our continuing oversight of TARP and in
response to a request from former Congressman Christopher J. Lee in a letter dated August 3, 2010.
We later received an additional request to conduct the audit by Congressman Michael R. Turner on
March 3, 2011. The requesters asked SIGTARP to conduct a review related to GM’s decision to
top up certain Delphi hourly retirees’ pension benefits. In response, the audit’s objectives were to
review:

   Treasury’s role in the decision for GM to top up the pension plan; and
   whether the Administration or the Auto Task Force pressured GM to provide additional funding
    for the plan.

The audit engagement was announced in November 2010 and we conducted our audit work from
December 2010 through August 2013 in Washington, D.C., New York, N.Y., San Antonio, Texas,
Chicago, Ill., Pittsburgh, Pa., and Detroit, Mich. This audit was conducted in coordination with
GAO to avoid excessive duplication of efforts. GAO reviewed PBGC’s termination of Delphi’s
hourly and salaried pension plans and other PBGC issues. The objectives of SIGTARP’s audit did
not involve a review of PBGC’s termination of the Delphi pension plans.

SIGTARP interviewed current and former officials from GM, Delphi, UAW, IUE, USW, the Delphi
Salaried Retirees Association, PBGC, and Treasury. In addition to testimonial evidence, SIGTARP
reviewed documents concerning the Auto Team, GM, Delphi, UAW, IUE, USW, PBGC, and the
Administration, including emails, contracts, calendar appointments, letters, memorandums, written
policies, procedures, guiding principles, press releases, public announcements, and written analyses.
SIGTARP also reviewed court documents, including depositions and motions, filed in the GM and
Delphi bankruptcies and in litigation brought by the Delphi Salaried Retirees Association.

SIGTARP makes no recommendations in this report. Although Treasury remains invested in GM,
and TARP’s Automotive Industry Financing Program is ongoing, the subject matter of this report
concerns specific actions taken by Treasury’s Auto Team during 2008 and 2009 that are unlikely to
occur again because the Auto Team disbanded.

SIGTARP conducted this audit in accordance with generally accepted government auditing
standards as prescribed by the Comptroller General of the United States. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for findings and conclusions based on the audit objectives. SIGTARP believes that the
evidence obtained provides a reasonable basis for the findings and conclusions based on the audit
objectives.




SIGTARP 13-003                                                                             August 15, 2013
TREASURY’S ROLE IN THE DECISION FOR GM TO PROVIDE PENSION PAYMENTS TO DELPHI EMPLOYEES                        44




Limitations on Data
SIGTARP generally relied upon Treasury to identify and provide relevant documentation, including
email communications and other Treasury records. To the extent that the documentation provided to
SIGTARP by Treasury did not reflect a comprehensive response to SIGTARP’s documentation
requests, SIGTARP’s review may have been limited.

Use of Computer-Processed Data
SIGTARP did not use any computer-processed data to complete this audit.

Internal Controls
SIGTARP did not perform an assessment of internal controls because such an assessment was not
relevant to accomplishing the audit’s objectives.

Prior Coverage
SIGTARP previously performed an audit related to Treasury’s Automotive Industry Financing
Program and GM’s restructuring, titled “Factors Affecting the Decisions of General Motors and
Chrysler to Reduce Their Dealership Networks.”46 The audit reviewed, among other things, the role
the Auto Team played in GM and Chrysler’s decision-making process regarding auto dealership
closings.

GAO has issued two related reports. In March 2011, GAO issued a report outlining the timeline
leading to the Delphi pension top-ups and in November 2011 GAO issued a testimony statement
based on the March 2011 timeline.47 In December 2011, GAO issued a report that addressed
PBGC’s termination of Delphi’s hourly and salaried pension plans.48 In July 2012, GAO issued an
additional testimony statement.49




46
   SIGTARP-10-008, “Factors Affecting the Decisions of General Motors and Chrysler to Reduce Their Dealership
   Networks,” 7/19/2010.
47
   GAO-11-373R, “Key Events Leading to the Termination of the Delphi Defined Benefit Plans,” 3/30/2011. GAO also
   published a testimony based on its March 2011 report, GAO-12-234T.
48
   GAO-12-168, “GM Agreements with Unions Give Rise to Unique Differences in Participant Benefits,” 12/15/2011.
49
   GAO also published a testimony based on its March 2011 and December 2011 reports, GAO-12-909T.


SIGTARP 13-003                                                                                       August 15, 2013
TREASURY’S ROLE IN THE DECISION FOR GM TO PROVIDE PENSION PAYMENTS TO DELPHI EMPLOYEES            45




Appendix B – Acronyms and Abbreviations
Acronym or                    Definition
Abbreviation

Auto Task Force              Presidential Task Force on the Auto Industry
Auto Team                    a group of Treasury officials responsible for overseeing GM’s restructuring,
                             who reported to the Auto Task Force
CEO                          chief executive officer
CFO                          chief financial officer
Chrysler                     Chrysler Group LLC
COO                          chief operating officer
Delphi                       Delphi Corporation
DIP                          debtor in possession
GAO                          Government Accountability Office
GM                           General Motors Corporation
IUE                          International Union of Electronic, Electrical, Salaried, Machine and
                             Furniture Workers
New GM                       General Motors Company – name of the company after GM’s bankruptcy
                             was completed in July 2009
Old GM                       General Motors Corporation
PBGC                         Pension Benefit Guaranty Corporation
SIGTARP                      Office of the Special Inspector General for the Troubled Asset Relief
                             Program
TARP                         Troubled Asset Relief Program
TARP loan agreement          Treasury’s Loan and Security Agreement
Treasury                     U.S. Department of the Treasury
UAW                          International Union, United Automobile, Aerospace, and Agricultural
                             Implement Workers of America
USW                          United Steelworkers of America
VEBA                         Voluntary Employee Beneficiary Association plan




SIGTARP 13-003                                                                           August 15, 2013
TREASURY’S ROLE IN THE DECISION FOR GM TO PROVIDE PENSION PAYMENTS TO DELPHI EMPLOYEES           46




Appendix C – Audit Team Members
This audit was conducted and the report was prepared under the direction of Bruce S. Gimbel, Acting
Assistant Deputy Special Inspector General for Audit and Evaluation, Office of the Special Inspector
General for the Troubled Asset Relief Program.

Staff members who conducted the audit and contributed to the report include Simon Galed, Jonathan
Lebruto, Eric Mader, John Poirier, and Samuel Withers.




SIGTARP 13-003                                                                           August 15, 2013
TREASURY’S ROLE IN THE DECISION FOR GM TO PROVIDE PENSION PAYMENTS TO DELPHI EMPLOYEES           47




Appendix D – Management Comments




SIGTARP 13-003                                                                           August 15, 2013
TREASURY’S ROLE IN THE DECISION FOR GM TO PROVIDE PENSION PAYMENTS TO DELPHI EMPLOYEES           48




SIGTARP 13-003                                                                           August 15, 2013
SIGTARP Hotline
If you are aware of fraud, waste, abuse, mismanagement, or misrepresentations associated with the Troubled
Asset Relief Program, please contact the SIGTARP Hotline.

By Online Form: www.SIGTARP.gov
   U           U   U                     U                         By Phone: Call toll free: (877) SIG-2009

By Fax: (202) 622-4559

By Mail:                  Hotline: Office of the Special Inspector General
                          for the Troubled Asset Relief Program
                          1801 L Street., NW, 3rd Floor
                          Washington, D.C. 20220


Press Inquiries
If you have any inquiries, please contact our Press Office:
                                                                   Troy Gravitt
                                                                   Director of Communications
                                                                   Troy.Gravitt@treasury.gov
                                                                   202-927-8940

Legislative Affairs
For Congressional inquiries, please contact our Legislative Affairs Office:
                                                                     Joseph Cwiklinski
                                                                     Director of Legislative Affairs
                                                                     Joseph.Cwiklinski@treasury.gov
                                                                     202-927-9159

Obtaining Copies of Testimony and Reports
To obtain copies of testimony and reports, please log on to our website at www.SIGTARP.gov. 
                                                                          U                    U




SIGTARP 13-003                                                                                         August 15, 2013
